Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1987 to
September 3D, 1987



November 1, 1987
FOREWORD
This report, submitted pursuant to the Inspector General
Act of 1978, summarizes Office of Inspector General
(OIG) activity over the 6-month period ending Septem-
ber 30, 1987. It is my fourth Report to the Congress.
This period, some exceptional OIG work resulted in a re-
cord level of savings to the Government, in terms of man-
agement commitments to recover funds, management
commitments to more efficiently use resources, volun-
tary recoveries, court-ordered recoveries, and investiga-
tive recoveries. In fact, these savings, which totaled
$124,658,415, represented a retum of $10. 75 for every dollar
budgeted for OIG operations during the 6-month period.
Equally important, this period saw the start of a long-
term effort to insure that the OIG remains an aggressive
and positive force in GSA. We hired 70 entry-level audi-
tors and investigators; instituted a rigorous professional
training program; moved to significantly expand the
number of computers available for professional use and
upgrade the quality of our work environment; and ad-
iusted our regional staffing to better correspond with re-
gional workloads.
These accomplishments have been made possible by a
dedicated OIG staff, and the strong support this office
has enioyed from the Congress, the Office of Manage-
ment and Budget, and the GSA Administrator. I am most
appreciative.




WILLIAM R. BARTON
Inspector General


October 30, 1987
INTRODUCTION AND OVERVIEW

A. Introduction                                                 •   Conviction of a bond agent for submitting false bid
                                                                    bonds.
This report, submitted pursuant to the Inspector Gen-         Detailed information on these and other activities is pre-
eral Act of 1978, chronicles the activities of the General    sented in Section II.
Services Administration (GSA) Office of Inspector Gen-
eral (OIG) between April 1, 1987 and September 30, 1987.
It is the eighteenth Report to the Congress since the ap-
pointment of GSA's first Inspector General.                   Federal Supply Service
                                                              The OIG invested 33 percent of its direct workhours in
                                                              audits and investigations of Federal Supply Service (FSS)
B. Overview                                                   programs. Noteworthy audits issued this period advised
                                                              management of:
The following paragraphs provide an overview of OIG au-
dit and investigative coverage of the Agency, as well as a      •   Opportunities to enhance the professional skills of
summary of OIG accomplishments and productivity. In                 warranted contracting officers.
addition, this section highlights significant OIG preven-       •   The need to establish procedures for the effective
tion activities.                                                    monitoring of contractor operated supply depots.
                                                                •   Potential cost avoidances of almost $34 million on
                                                                    two procurements of copying equipment.
1. Audit and Investigative Coverage of GSA                    In response to other significant OIG audits and investi-
      Programs                                                gations, the Department of Justice and/or FSS officials:

Audit and investigative coverage of GSA programs iden-          •   Recovered $470,746 from a contractor due to
tified a number of opportunities for more efficient and ef-         overbillings.
fective Agency operations. Overall, this report reflects a      •   Reached a $50,000 civil fraud settlement with a
strong commitment on the part of GSA management to                  typewriter equipment supplier.
make those improvements.
                                                                •   Successfully prosecuted an individual who used an
                                                                    unauthorized Government credit card.
                                                              Detailed information on these and other activities is pre-
Public Buildings Service                                      sented in Section III.
The OIG expended 37 percent of its direct workhours re-
viewing Public Buildings Service (PBS) programs. Resul-
tant audits assisted PBS managers in addressing issues
such as:                                                      Information Resources Management Service
  •    The need for improving internal control standards,     The OIG expended 18 percent of its direct workhours per-
       budget plans, and project controls in the Buildings    forming audits and investigations involving the pro-
       Management Program.                                    grams of the Information Resources Management Service
  •    Recurring maintenance and repair problems in a         (IRMS). As a result of the findings developed through an
       leased facility.                                       especially noteworthy OIG postaward audit, IRMS took
                                                              action to recover $3.2 million from a multiple award
  •    Possible asbestos hazards in a Federal building        schedule contractor.
       complex.
                                                              Also, management committed itself to avoid expendi-
  •    The need to enforce requirements for schedules and     tures of almost $96 million, based on recommendations
       price breakdowns on construction contracts.            contained in the consolidated report on the President's
                                                              Council on Integrity and Efficiency review of Federal
  •    Potential cost avoidances of $2.2 million on a lease
       escalation proposal.                                   Telecommunications System utilization. This report was
                                                              issued during the preceding six-month period and was
Actions by the Department of Justice on other notewor-        highlighted in our last Report to the Congress.
thy audits and investigations resulted in:
                                                              In addition, significant OIG preaward contract audits is-
  •    A $95,000 civil settlement agreement with a con-       sued this period assisted IRMS managers in acting on po-
       tractor who submitted claims against the Govern-       tential cost avoidances of over $10 million on three
       ment for work that was not performed.                  contractor proposals.
  •    Successful prosecution of a GSA employee who dis-      Detailed information on these and other activities is pre-
       tributed cocaine in the Federal workplace.             sented in Section rv.
Other GSA Coverage                                               •   17 case referrals accepted for criminal prosecution
                                                                     and 4 case referrals accepted for civil litigation;
The OIG expended almost 12 percent of its direct work-           •   16 indictmentslinformations/complaints on crimi-
hours reviewing organizations such as the Office of                  nal referrals;
Administration, the Federal Property Resources Service,
and the Office of the Comptroller. The resultant audits          •   18 successful criminal prosecutions;
addressed a variety of areas, including GSA's implemen-
                                                                 •   2 settlements and 11 civil fraud complaints;
tation of the Federal Managers' Financial Integrity Act
(FMFIA), financial operations, overtime usage, and im-           •   20 contractor suspensions and 27 contractor
prest funds.                                                         debarments;
In response to issues raised in six audits, management is        •   19 reprimands, 11 suspensions, 1 demotion, and 16
taking action to:                                                    terminations of GSA employees;
  •   Improve GSA's process for implementing Section 2           •   19 Inspector General subpoenas; and
      of the FMFIA.
                                                                 •   327 legislative initiatives and 113 regulations and
  •   Strengthen controls over non-Federal accounts                  directives reviewed.
      receivables.
                                                               Management commitments to more efficiently use re-
In addition, utilization of information contained in OIG       sources, management commitments to recover funds,
preaward audit reports resulted in management success-         voluntary recoveries, court-ordered recoveries, and inves-
fully negotiating $10.7 million in pricing concessions on      tigative recoveries totaled $124,658,415 during the sec-
a ferromanganese conversion contract.                          ond half of FY 1987. This represented a return of $10.75
                                                               for every $1 budgeted to OIG operations during the
Detailed information on these and other activities is pre-     6-month period.
sented in Section V
                                                               Detailed information on these and other activities is pre-
                                                               sented in Sections VI and VII.
2. DIG Accomplishments and Productivity
The OIG tracks its accomplishments both on an aggre-
gate basis and, in critical areas of our performance, on the   OIG Productivity
basis of actual staffyears incurred. The latter calcula-
tions yield productivity data that are less influenced by      As noted previously, in critical areas of our performance
fluctuations in staffing levels.                               we compute OIG productivity based on actual staff years
                                                               - full-time equivalent (FTE) positions - incurred.
                                                               Since these data are less influenced by fluctuations in
Overall OIG Accomplishments                                    staffing levels, they are an excellent mechanism for
                                                               measuring OIG performance over time.
OIG accomplishments this period included:                      The following table presents these productivity data for
                                                               FY 1984 through FY 1987. During FY 1987, the OIG
  •   313 audit reports;
                                                               clearly made significant gains in recovering/avoiding
  •   $110,469,765 in recommendations for more efficient       costs and in recommending costs for recovery/avoidance.
      use of resources and in recovery recommendations;        It should be noted, however, that our productivity in
                                                               these areas was influenced by several exceptionally high
  •   $119,406,367 in management commitments to
                                                               dollar results.
      more efficiently use resources;
                                                               The trend toward a lower number of investigative refer-
  •   $5,252,048 in management commitments to re-              rals and employee actions per investigations FTE reflects
      cover funds, voluntary recoveries, and court-or-
                                                               this office's increasing focus on complicated white collar
      dered and investigative recoveries;
                                                               crime investigations and - as a corollary - the lower
  •   225 investigative cases opened and 199 closed;           priority being assigned to employee misconduct matters.
                      Productivity Factor                                   FY84             FY85            FY86           FY87

      Total costs recovered/avoided* per audit,
        counsel, and investigations FTE .....................               $522,688       $444,152         $368,065       $666,511
      Recommended cost recovery and avoidance
        per audit FTE ..................................................   $1,357,104      $601,564         $792,089     $1,368,478
      Audit reports per audit FTE .................................            3.1            2.7              2.9           2.7
      Referrals (criminal, civil, and administrative) per
        investigations FTE ..........................................         8.4              7.6                6.0         5.0
      Positive investigative outcomes (indictments/
        informations/complaints/successful
        prosecutions) per investigations FTE ..............                   0.9              1.2                1.2         0.9
      Employee actions (reprimands, terminations,
        suspensions, and demotions) per investi-
        gations FTE ....................................................      1.6              1.5                1.3         1.0

*Includes management commitments, voluntary recoveries, court-ordered recoveries, and investigative recoveries.



3. Prevention Activities                                                            leases involving annual rentals in excess of
                                                                                    $200,000.
As detailed in Section VIII, the OIG's program to prevent
fraud, waste, and mismanagement encompasses a wide                            •     Integrity Awareness Briefings for 1,196 GSA
variety of activities.                                                              employees.
Highlights of our efforts during the period included:
                                                                              •     Receipt of 292 Hotline calls/letters and referral of
  •   Completion of 25 preaward advisory reviews of                                 72 of these complaints for further action.




                                                                                                                                           iii
TABLE OF CONTENTS
                                                                        Page                                                                          Page
INTRODUCTION AND OVERVIEW .............. ..                                    SECTION VI-STATISTICAL SUMMARY OF
                                                                               OIG ACCOMPLISHMENTS..............................                      17
REPORTING REQUIREMENTS ........ ...............                         vi
                                                                                A. OIG Accomplishments ............ ..................                17
SECTION I-ORGANIZATION, STAFFING,                                               B. Summary Statistics....................................             18
AND BUDGET...................................................            1
                                                                               SECTION VII-REVIEW OF LEGISLATION
  A. Organization......................... .......... ............       1
                                                                               AND REGULATIONS ........................................               25
  B. Office Locations.........................................           1
                                                                                 A. Legislation/Regulations Reviewed............                      25
  C. Staffing and Budget.....................................            1
                                                                                 B. Significant Comments ...............................              25
SECTION II-PUBLIC BUILDINGS
                                                                               SECTION VIII-OTHER OIG ACTIVITIES....                                  27
SERVICE..............................................................    2
                                                                                 A. OIG Prevention Program ...........................                27
  A. Overview of OIG Activity.......... ...............                  2
                                                                                B. Projects Sponsored by the PCIE.................                    28
  B. Significant Audits and Investigations .......                       2
  C. Significant Preaward Audits ......................                  5
  D. Statistical Highlights .................................            5
  E. Significant Audits From Prior Reports ......                        5     APPENDICES
SECTION III-FEDERAL SUPPLY SERVICE...                                    8
                                                                               APPENDIX I-AUDIT REPORT REGISTER ...                                   30
  A. Overview of OIG Activity............ .............                  8
 B. Significant Audits and Investigations .......                        8     APPENDIX II-DELINQUENT DEBTS............                               43
 C. Significant Preaward Audits ......................                   9
 D. Statistical Highlights .................................            10     APPENDIX III-SUMMARY OF OIG
 E. Significant Audits From Prior Reports ......                        11     PERFORMANCE DURING FISCAL
                                                                               YEAR 1987 ..........................................................   44
SECTION IV-INFORMATION RESOURCES
MANAGEMENT SERVICE ................................                     12
 A. Overview of OIG Activity.........................                   12
 B. Significant Audits ......................................           12     LIST OF TABLES
  C. Significant Preaward Audits ......................                 12
                                                                               1. Summary of OIG Audits.................................              18
  D. Statistical Highlights .................................           13
  E. Significant Audits From Prior Reports ......                       13     2. Resolution of OIG Audits...............................             19
                                                                               3. Resolution Decisions on OIG Audits ............                     20
SECTION V-OTHER GSA COVERAGE.........                                   15     4. Summary of Contract Audit Settlements......                         21
 A. Overview of OIG Activity.........................                   15     5. Investigative Workload...................................           22
 B. Significant Audits ......................................           15     6. Distribution of Cases Opened This Period ....                       22
  C. Significant Pre award Audits ......................                16     7. Summary of OIG Subject Referrals ................                   23
 D. Statistical Highlights .................................            16     8. Summary of Criminal and Civil Actions.......                        24
 E. Significant Audits From Prior Reports ......                        16     9. Criminal and Civil Recoveries ........... ,;...........             24




                                                                                                                                                             v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-                                No. 96-829 relative to the 1980 Supplemental Appropri-
     ments prescribed by the Inspector General Act of 1978                                  ations and Rescission Bill is also cross-referenced to the
     to the specific pages where they are addressed. The                                    appropriate page of the report.
     information requested by the Congress in Senate Report



                                                                 Source                                                                        Page
          Inspector General Act
          1. Section 4(a)(2)-Review of Legislation and Regulations ...................................... .                                     25
          2. Section 5(a)(1 )-Significant Problems, Abuses, and Deficiencies ........................ .                                      2,8,12,15
          3. Section 5(a)(2)-Recommendations With Respect to Significant Problems,
               Abuses, and Deficiencies .................................................................................. .                2,8,12,15
          4. Section 5(a)(3)-Prior Recommendations Not Yet Implemented ......................... .                                          5,11,13,16
          5. Section 5(a)(4)-Matters Referred to Prosecutive Authorities .............................. .                                       23
          6. Sections 5(a)(5) and 6(b)(2)-Summary of Instances Where Information Was
             Refused ................................................................................................................ .   None This Period
          7. Section 5(a)(6)-List of Audit Reports .................................................................. .                         30
          Senate Report No. 96-829
          1. Resolution of Audits ...............................................................................................               19
          2. Delinquent Debts ...................................................................................................               43




VI
SECTION I-ORGANIZATION1 STAFFING1
AND BUDGET

Pursuant to the Inspector General Act of 1978, an Office
of Inspector General (OIG) was established within the
                                                              B. Office Locations
General Services Administration (GSA) on October!,
                                                              The OIG is headquartered in Washington, DC, at GSA's
1978. As currently configured, the OIG consists of four
                                                              Central Office building. Field audit and investigations of-
offices that function cooperatively to perform the mis-
                                                              fices are maintained in the following cities: Boston, New
sions legislated by the Congress.
                                                              York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                                                              Worth, San Francisco, and Washington, DC. In addition,
                                                              the Office of Audits has a resident office in Auburn. The
                                                              Office of Investigations has resident offices in Auburn,
                                                              Cleveland, St. Louis, and Los Angeles. This period, di-
                                                              minished workloads in the Denver and Auburn regions
                                                              led the OIG to close its resident audit and investigations
                                                              offices in Denver and to change the status of the Auburn
A. Organization                                               field audit office to a resident office.

The OIG utilizes a functional organizational structure to
provide nationwide coverage of GSA programs and activ-
ities. It consists of:                                        c.    Staffing and Budget
  ..   The Office of Audits, a multidisciplinary unit         The ~IG's approved Fiscal Year (FY) 1987 budget is ap-
       staffed with financial and technical experts who       proximately $21. 7 million, including an intra-Agency
       provide comprehensive coverage of GSA operations       transfer of $200,000 and a supplemental appropriation of
       (internal or management audits) as well as GSA         $373,000 to cover increased Federal Employees Retire-
       contractors (external or contract audits). Headquar-   ment System costs. At the end of FY 1987, the OIG had
       ters divisions direct and coordinate the audit pro-    obligated $21.4 million or 99.6 percent of its FY 1987
       gram, which is performed by the nine field audit       funds.
       offices and one resident office.
                                                              Although a personnel ceiling of 452 full-time equivalent
  ..   The Office of Investigations, an investigative unit    positions has long been established as a maximum em-
       that manages a nationwide program to prevent and       ployment limit for the OIG, only 430 were supportable
       detect illegal and/or improper activities involving    for the entire period of the fiscal year.
       GSA programs, personnel, and operations. Opera-
       tions officers at headquarters coordinate and over-    The OIG started FY 1987 with a total on-board strength
       see the investigative activity of nine field           of 340 full time employees, our lowest staffing level since
       investigations offices and four resident offices.      1979. By the end of FY 1987, despite the loss of 74 person-
                                                              nel during the year, the OIG had reached a staffing level
  ..   The Office of Counsel to the Inspector General, an     of 422 full time employees with commitments for an ad-
       in-house legal staff that provides opinions and ad-    ditional9 positions. This was accomplished by hiring 156
       vice on matters under OIG review. These attorneys      new employees, 130 of whom were entry-level auditors
       also manage the civil referral system, formulate       and investigators. Seventy of the entry-level employees
       OIG comments on existing and proposed legisla-         were hired during the second half of FY 1987.
       tion and regulations, and assist in litigation.
                                                              By the end of FY 1987, the ~IG's travel limitation proved
 ..    The Office of Policy, Plans, and Management Sys-       to be a significant budget problem. Increased staffing plus
       tems, a centralized unit that oversees the develop-    higher travel costs yielded travel requirements exceeding
       ment of OIG policies and plans, evaluates the          our travel limitation. As a result, some priority audit and
       operations of the other OIG components, provides       investigative work had to be deferred. Ib prevent a re-
       data systems support, and handles budgetary, ad-       currence of this situation, we have requested an increase
       ministrative, and personnel matters.                   in the travel limitation for future years.




                                                                                                                            1
    SECTION II-PUBLIC BUILDINGS SERVICE

    The Public Buildings Service (PBS) manages much of the        B. Significant Audits and
    Federal Government's real estate assets nationwide. Its
    responsibilities range from constructing, purchasing,
    and leasing space for Government use to maintaining
                                                                     Investigations
    and protecting that space. In the second half of FY 1987,     This section summarizes significant internal audits and
    the total available funding authority of the Federal Build-   investigations dealing with PBS. Significant preaward
    ings Fund was over $2.2 billion. During the same period,      contract audits are presented in Section C.
    PBS obligated almost $1.5 billion of these funds.
    Commensurate with this level of activity, the OIG de-
    voted some 50,308 direct staffhours pursuing audit and
    investigative assignments. This figure reflects 37 per-       Improvements Needed in Buildings
    cent of total OIG direct staffhours.                          Management Program
                                                                  During this period, the OIG completed an overall evalu-
                                                                  ation of a regional Buildings Management Program. The
    A. Overview of OIG Activity                                   two-phased evaluation consisted of reviews of five field
                                                                  offices, followed by an assessment of the operations of the
    This period, almost 68 percent of the internal audit re-      Real Property Management and Safety Division. Individ-
    ports issued by the OIG addressed PBS programs and ac-        ual reports summarizing specific conditions identified in
    tivities. We presented findings relative to buildings         each field office were issued.
    management, lease enforcement, building purchases, and        In an April 17, 1987 consolidated report, we advised the
    contract administration. Some of the more significant re-     Regional Administrator that, while the division was gen-
    views assisted PBS managers in taking action relative to:     erally effective in managing the field offices and satisfy-
                                                                  ing customer agency requirements, procedures required
      •   Improving internal control standards, budget plans,
          and project controls in the Buildings Management        strengthening in several major areas. We found that field
          Program.                                                offices did not always meet the internal control standards
                                                                  established by Office of Management and Budget (OMB)
      •   Recurring maintenance and repair problems in a          Circular A-123 because GSA procedures were not effec-
          leased facility.                                        tively implemented. Also, some field offices incurred ob-
                                                                  ligations in excess of their fiscal year budget plans, which
      •   Possible asbestos hazards in a Federal building         could resul t in fund control viola ti(ms. In addi tion, repair
          complex.                                                and alteration projects were not always properly admin-
      •   Enforcing requirements for schedules and price          istered, projects were split to avoid procurement authority
          breakdowns on construction contracts.                   limitations, and field office managers were given responsi-
                                                                  bility for managing projects beyond their authority.
    The OIC also issued 93 contract audit reports relative to
    PBS programs, many evaluating construction claims,            We offered five recommendations to the Assistant Re-
    change orders, and lease escalation proposals. In total,      gional Administrator, Public Buildings Service, to correct
    these reports recommended cost avoidances and cost re-        identified deficiencies. These included recommendations
    coveries of almost $15 million.                               to:
    OIG investigators completed 80 cases involving PBS pro-         •   Analyze field office opera tions to ensure compli-
    grams, operations, or employees. Of these cases, 43 per-            ance with OMB Circular A -123 internal control
    cent involved allegations of white collar crimes. Notably,          standards.
    an OIG investigation resulted in the conviction of a for-       •   Require field office managers to operate within
    mer GSA employee on charges that she distributed co-                their budget plans.
    caine in the Federal workplace. As a result of this same
    investigation, four other GSA employees have been               •   Develop and implement additional procedures to
    charged with possession of controlled substances.                   ensure proper project control.
    Another investigation resulted in a false statements          The Regional Administrator submitted responsive ac-
    conviction. A bond agent had submitted false bid bonds        tion plans for implementing the report recommenda-
    to GSA, without the bidder's knowledge.                       tions. Resolution was achieved on August 10, 1987.




2
Lease Enforcement                                              firm had submitted claims for the repair and mainte-
                                                               nance of Federal buildings on which little or no work was
As part of a regional review of GSA's lease enforcement        performed. The investigation also found that the contrac-
efforts, the OIG distributed questionnaires to Federal         tor bribed and paid kickbacks to GSA employees to obtain
agencies housed in leased facilities. One response indi-       contracts and facilitate the rigging of bids. The GSA em-
cated that numerous deficiencies existed in an agency's        ployees were previously convicted for their offenses.
leased space. Upon its receipt, we inspected the space
and reviewed the related lease file.
Our review confirmed the validity of the complaints, not-      Asbestos Hazard in a Federal Complex
ing that problems with maihtenance and repair at the
building included: unsatisfactory heating and air condi-       An OIG evaluation of GSA's purchase of a three-building
tioning systems, leaking windows, water-damaged walls          complex identified a misrepresentation by the seller con-
and carpet, missing ceiling tiles, and incomplete altera-      cerning the presence of friable asbestos. We found that,
tions. Review of the lease files provided evidence that        despite the seller's certification to the contrary, each
these problems had been identified and inspected, and          building contained significant amounts of friable asbes-
that final decisions had been prepared, but not issued.        tos. A certified testing laboratory confirmed that sam-
However, GSA's lease enforcement actions had not been          ples taken during an OIG inspection contained
sufficiently timely or aggressive to achieve satisfactory      chrysotile asbestos, which is considered friable.
corrective actions. Although a principal reason for the
continuing problems was a nonresponsive landlord, the          Due to the potentially hazardous conditions noted in
OIG found that GSA's ineffective lease enforcement ef-         our inspection, we issued an interim audit report on
forts were also a contributing factor. Our analysis of the     August 25, 1987. This report recommended that the
lease file also disclosed that the lessor had apparently re-   Regional Administrator:
ceived approximately $43,000 in rental overpayments.             e   Determine the legal remedies available to GSA.
In our April 20, 1987 audit report, we directed six rec-         •   Conduct a detailed field survey to assess the degree
ommendatiuns to the Assistant Regional Administrator,                of asbestos hazards at the complex.
Public Buildings Service, to correct identified deficien-
cies. The more significant recommendations require:              •   Develop an asbestos abatement plan.
  e   A joint inspection by the contracting officer, cog-        e   Formulate a long-range plan for housing the
      nizant field office and safety and environmental               occupants.
      branch personnel, and the lessor, to result in: a con-     •   Comply with GSA internal requirements for imple-
      solidation of all previous inspection reports and de-          menting an Operations and Maintenance Program.
      ficiency lists into one master list; a requirement
      that the lessor correct all deficiencies within a pre-     •   Include funding for asbestos abatement and related
      scribed time period; and a requirement that the                costs in any future prospectus covering this complex.
      field office correct all deficiencies not corrected
      by the lessor, with the costs deducted from rental       We are awaiting the action plans for implementing the re-
      payments.                                                port recommendations.

  •   An analysis by the contracting officer of lease and
      rental payment documents to determine if overpay-
      ments have occurred, followed by appropriate cor-        GSA Employee Convicted of Cocaine
      rective action.                                          Distribution
The Regional Administrator submitted responsive ac-
                                                               On April 20, 1987, a former GSA employee was sentenced
tion plans for implementing the report recommenda-
                                                               in U.S. District Court after pleading guilty to distribut-
tions. Resolution was achieved on July 9, 1987.
                                                               ing cocaine. She was sentenced to 3 years in prison (sus-
                                                               pended), placed on 3 years probation, and ordered to
                                                               undergo monthly drug testing.
$95,000 Civil Settlement                                       The conviction resulted from an OIG investigation ini-
                                                               tiated after a confidential source alleged use of cocaine
On April 2, 1987, attorneys from the Department of Jus-        among the employees of a GSA regional office. The inves-
tice and the GSA OIG reached a civil settlement agree-         tigators were able to make controlled buys of cocaine
ment with the former co-owners of a contracting firm.          from the employee, who resigned her GSA position after
Under the terms of the settlement, the subjects agreed to      being arrested.
pay the Government $95,000.
                                                               The investigation also resulted in four additional GSA
GSA OIG inspectors assisted the Federal Bureau of In-          employees being charged with illegal possession of con-
vestigation in an investigation that disclosed that the        trolled substances and aiding and abetting.




                                                                                                                             3
    Construction Contract Administration                          Proposed Lease Extension Questioned
    An OIG review of the construction of a Federal building       An OIG preaward advisory review of a proposed lease ex-
    disclosed that, while the overall building quality gener-     tension disclosed that the extension did not include a ter-
    ally complied with contract specifications, improve-          mination provision, and that the lessor would not agree
    ments were needed in GSA's contract administration.           to such a provision. Since a tenant agency wants to relo-
    The review identified significant problems with the proj-     cate its data center prior to the pending lease expiration
    ect's construction and payment schedules as well as with      date, the absence of termination rights could result in
    payments for, and the administration of, change orders.       rental payments for vacant space. Further, we found that
                                                                  the proposed lease did not include a requirement for the
    We found that the contracting officer had not enforced        lessor to correct previously identified environmental de-
    scheduling requirements and had, in fact, improperly ap-      ficiencies. A private medical consultant, hired by GSA in
    proved deviations from these requirements. Also, the          response to tenant agency complaints concerning air
    contract price breakdown was accepted even though it
                                                                  quality, had detected allergen contamination produced
    failed to comply with contractual requirements, did not       through the building's air handling system. The consul-
    provide sufficient detail upon which to base payments,        tant recommended cleaning and balancing the heating,
    and contained questionable line item values.                  ventilation, and air conditioning system.
    Additionally, we identified problems with change orders,      The April 24, 1987 final report recommended that the
    including: payments for changed work prior to the formal      Assistant Regional Administrator, Office of Real Estate
    change order agreements; price-to-be-determined-Iater         and Development:
    (PDL) change orders that exceeded 50 percent completion
    prior to resolution of pricing agreements; and payments         •   Relocate the tenant agency closer to the expiration
    exceeding PDL amounts. These questionable change or-                date of the proposed lease or have other tenants
    der payments totaled approximately $982,000. Further,               available to backfill the vacant space.
    the contracting officer did not include entitlement to
    time as part of the change order settlements. Finally, two      •   Reopen negotiations with the lessor to resolve the
    unauthorized supplemental agreements modified the                   environmental deficiencies and, at a minimum,
    changes clause, allowing the contractor to reserve the              clean and balance the air handling equipment.
    right to claim additional time and money as part of the       The Regional Administrator submitted responsive ac-
    change order.                                                 tion plans for implementing the report recommenda-
    In our report, dated July 31, 1987, we directed 13 recom-     tions.Resolution was achieved on August 10, 1987.
    mendations to the Assistant Regional Administrator,
    Public Buildings Service, to correct these and other defi-
    ciencies. The more significant recommendations urged:         False Statements Conviction
      •   Revising future contracts requiring Critical Path
          Method (CPM) scheduling to ensure submittal and         On May 29, 1987, a bond agent was sentenced in U. S. Dis-
          approval of the CPM schedule prior to issuance of a     trict Court after pleading guilty to preparing false state-
          notice to proceed.                                      ments. He was sentenced to 3 years in prison (suspended)
                                                                  and placed on 3 years probation.
      •   Enforcing the requirement for the breakdown of
          contract price and schedule on all future construc-     The sentencing resulted from an OIG investigation into
          tion contracts.                                         false bid bonds submitted to GSA. The investigation was
                                                                  initiated after a GSA supervisor advised the OIG that bid
      •   Obtaining a credit for any payments made for            bonds submitted by the agent did not appear authentic.
          change orders not officially issued and paying only     The investigation confirmed that the bond agent had is-
          for changed work when an official change order          sued false bonds valued at $261,644, without the bidder's
          exists.                                                 knowledge, by forging a signature.
      •   Directing the contracting officer to comply with
          GSA guidelines pertaining to settlement and pay-
          ment for PDL change orders.                             Proposed Lease Questioned
      •   Including, as part of the change order, all costs and   An OIG preaward advisory review of the proposed one-year
          time affected by the change order.                      lease of a temporary border station facility found that:
      •   Instructing contracting officers to document legal      the proposed lease did not conform with Federal Acqui-
          opinions and recommendations in writing.                sition Regulation pricing requirements; the tenant
                                                                  agency had not been informed of deviations from its fa-
    In responding to the draft report, the Regional Adminis-      cility requirements; and the proposed lease did not fully
    trator concurred with the recommendations and credited        comply with GSA leasing procedures. As a result, the
    the audit with speeding the completion of the project and     Government cannot establish the reasonableness of the
    providing lessons that will benefit future construction       proposed price nor receive credits for any residual value
    projects. We are awaiting the action plans for implement-     of Federally-financed improvements. Further, the tenant
    ing the report recommendations.                               agency could be hindered in functioning effectively


4
Our July 31, 1987 audit report recommended that the As-                             $2.2 Million of Proposed Rent Increase
sistant Regional Administrator, Public Buildings Service:                           Questioned
  e   Withhold award of the lease until all Federal Ac-
      quisition Regulation requirements for negotiated                             An OIG audit of a $1.8 million lease escalation proposal
      procurements have been met.                                                  determined that the proposed escalation did not fully
                                                                                   comply with the terms of the lease. The July 24, 1987 au-
  e   Obtain, in writing, tenant agency approval for all                           dit report advised the contracting officer that the pro-
      deviations from their facility requirements.                                 posal included operating costs not subject to escalation.
  e   Correct all procedural deficiencies in this leasing                          We further advised that use of historical rates, rather
      action.                                                                      than estimates, yielded significantly lower figures. In to-
                                                                                   tal, the auditors recommended adjustments equaling al-
The Regional Administrator concurred with the recom-                               most $2.2 million - meaning that GSA's total rental
mendations in the draft report. We are awaiting action                             payments over the 5-year period covered by the proposal
plans for implementing our recommendations.                                        should be $386,155 less than paid over the previous 5-year
                                                                                   period.
                                                                                   We are awaiting the contracting officer's position on the
                                                                                   questioned costs.


C. Significant Preaward Audits
                                                                                   D. Statistical Highlights
The OIG's preaward audit program provides information
to contracting officers for use in negotiating contracts.                          The following table compares OIG activity and accom-
The pre-decisional, advisory nature of preaward audits                             plishments within PBS to the overall GSA totals for the
distinguishes them from other audits.                                              period.

                                                  Activity                                                         PBS          All GSA

      Audit Reports Issued ............................................................................... ..       140            313
      Recommended Cost Avoidance ............................................................... .              $14,695,898    $92,630,042
      Recommended Cost Recovery ................................................................ .                 $109,740    $17,839,723
      Management Commitments to Avoid Costs ............................................ ..                      $5,481,135   $119,406,367
      Management Commitments to Recover Funds ........................................ .                           $356,942     $4,282,586
      Percentage of Recommended Cost
        Avoidance Agreed to by Management .................................................. .                      67              75
      Percentage of Recommended Cost
        Recovery Agreed to by Management.. .................................................. .                     76             88
      Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .                                    1              2
      Implementation Reviews Finding Unimplemented Recommendations .... ..                                           7              7
      New Investigative Cases ......................................................................... ..          90            225
      Criminal Referrals (Subjects) .................................................................. ..           31             85
      Civil Referrals (Subjects) .......................................................................... .        6             22
      Administrative Referrals (Subjects) ......................................................... ..              93            211
      Suspension/Debarment Referrals (Subjects) ........................................... .                       38             94
      Indictments/Informations/Complaints ........ ,.............................................. .                 6             16
      Successful Criminal Prosecutions ........................................................... ..                6             18
      Civil Settlements/Judgments ................................................................... ..                            2

                                                                                   Office of Administration, is responsible for ensuring im-
E. Significant Audits From Prior                                                   plementation of resolved audit recommendations. That
                                                                                   office furnished the following status information.
   Reports
                                                                                   Eight audits highlighted in prior Reports to the Congress
Under GSA's audit resolution system, the OIG is respon-                            require action by PBS management before they are fully
sible for ensuring resolution of audit recommendations.                            implemented. All eight reports are being implemented in
The Audit Resolution and Internal Controls Division,                               accordance with currently established milestones.




                                                                                                                                                 5
    PCB RetroHll Project                                         demand letter was written and an account receivable was
                                                                 established in the amount of $137,082. The contractor has
    Period First Reported: October 1, 1986 to March 31, 1987     since filed an appeal with the GSA Board of Contract
                                                                 Appeals.
    This November 25, 1986 report advised GSA of the prob-
    lems associated with using a retrofill process to repair
    polychlorinated biphenyls contaminated electrical trans-
    formers. The report contained four recommendations;          Excessive Tax Escalation Payments
    three have been implemented.
    The action plan for the remaining recommendation,            Period First Reported: April1, 1985 to September 30, 1985
    which involves design work, consists of six parts. Imple-    This June 4, 1985 review disclosed that the tax escalation
    mentation is scheduled for various dates between Octo-       clause contained in GSA leases, coupled with some local
    ber 1987 and January 1989.                                   taxing practices, resulted in exorbitant Government tax
                                                                 escalation payments. The report contained eight recom-
    Energy Conservation in Leased Space                          mendations; five have been implemented.

    Period First Reported: Apri11, 1986 to September 30, 1986    The three remaining recommendations generally involve
                                                                 specific actions to reduce GSA's liability for excessive
    This review of energy usage in leased buildings advised      tax escalation payments. Two of the recommendations
    GSA that, while notable progress had been made in identi-    were originally scheduled for completion in November
    fying and monitoring energy usage problems, additionalop-    1985 and the other in March 1986. Implementation dates
    portunities for energy conservation still existed. The OIG   for all three recommendations have been renegotiated to
    made ten recommendations; eight have been implemented.       June 1988.
    The two remaining recommendations involve the instal-
    lation of sensor devices and the performance of energy
    conservation building studies. They are scheduled to         More Improvements Needed in Lease Award
    be fully implemented by January 1990 and April 1990,
    respectively.                                                Procedures

    Fire and Safety Program                                      Period First Reported: October 1, 1984 to March 31, 1985
                                                                 This consolidated report identified significant problems ad-
    Period First Reported: October 1, 1985 to March 31, 1986     versely affecting lease awards in spite of recent program
    This multiregional review of GSA's Fire and Safety Pro-      improvements implemented by PBS. The report contained
    gram advised GSA management that, while many signif-         20 recommendations; 19 have been implemented.
    icant improvements had been made in the program,             The implementation date for the remaining recommen-
    further enhancements were necessary. The OIG made            dation, which involves updating the leasing handbook,
    eight recommendations; six have been implemented.            has been renegotiated to June 1988.
    The remaining two recommendations involve: (1) train-
    ing of regional and buildings operating personnel, and
    (2) revisions to the Fire and Safety Program Handbook.       Fire and Life Safety Systems
    Full implementation is scheduled for December 1987 and
    February 1988, respectively.                                 Period First Reported: April 1, 1984 to September 30, 1984
                                                                 This consolidated report identified the need for GSA ac-
                                                                 tion to ensure the proper functioning of fire and life
    Administration of Cleaning Contracts                         safety systems in Federal buildings throughout the coun-
    Period First Reported: October 1, 1985 to March 31, 1986     try. The report contained ten recommendations; six have
                                                                 been implemented.
    This OIG review concluded that regional controls over
                                                                 Three recommendations, which require action by the re-
    cleaning contracts required strengthening. We made
    seven recommendations to correct the identified defi-        gions, were originally due for completion between Octo-
    ciencies; six have been implemented.                         ber 1985 and January 1986. Extensions have been granted
                                                                 and all three are now due in October 1987. The other rec-
    The remaining recommendation involves the collection         ommendation, requiring replacement of a fire alarm sys-
    of overpayments to a GSA contractor. On July 14, 1986, a     tem, is scheduled for implementation by November 1987.




6
Fire and Life Safety Systems                                The remaining report contained 4 recommendations; 3
                                                            have been implemented.
Period First Reported: October 1, 1983 to March 31, 1984    Implementation of the remaining recommendation is
                                                            generally proceeding in accordance with the action plan,
A series of seven OIG reviews identified deficiencies in    although delays have been experienced and revised im-
fire and life safety systems in GSA-controlled space. Six   plementation dates have been granted. Full implementa-
reports were fully implemented as of September 30, 1987.    tion is now scheduled for January 1988.




                                                                                                                       7
    SECTION III-FEDERAL SUPPLY SERVICE

    The Federal Supply Service (FSS) operates a Government-
    wide service and supply system that contracts for and
                                                                    B. Significant Audits and
    distributes billions of dollars worth of supplies, mate-
    rials, and services for customer agencies each year. FSS
                                                                       Investigations
    also controls GSA's personal property program. In the           This section summarizes significant internal and post-
    second half of FY 1987, FSS obligated approximately             award audits and investigations dealing with FSS. Sig-
    $87 million in direct operating expense appropriations.         nificant preaward contract audits are presented in
    Estimated sales through the General Supply Fund during          Section C.
    the same period were approximately $1.2 billion.
    Consistent with this level of activity, the OIG expended
    some 45,329 direct staffhours .pursuing audit and inves-
    tigative assignments. This statistic reflects almost 33         $470,746 Recovery
    percent of total OIG direct staffhours.
                                                                    On September 8, 1987, a firm agreed to reimburse the
                                                                    Government $470,746 for excess charges. The firm, a
                                                                    supplier of office machine maintenance services, re-
    A. Overview of DIG Activity                                     funded the full amount to the Government at the time of
                                                                    settlement.
    In a series of internal audit reports issued this period, the   The firm voluntarily disclosed to the GSA OIG overbill-
    OIG presented its findings in a variety of FSS program          ings to Federal agencies relating to "open market" pro-
    areas, including training of contracting officers, contract     curements of office machine maintenance. An OIG audit
    administration, product warranties, and vehicle sales.          then quantified the loss to the Government.
    Two reports were especially noteworthy:
      ..   Evaluation of compliance with the training re-
           quirements of the Contracting Officer Warrant Pro-
           gram disclosed that many contracting officers had
           not completed mandatory training courses. We at-         Contracting Officer Training
           tributed the problem to the low priority placed on
           training by managers.                                    The purpose of the GSA Contracting Officer Warrant Pro-
                                                                    gram is to ensure that only highly qualified contracting
      ..   Analysis of a contractor's operation of an FSS sup-
                                                                    personnel are granted warrants authorizing them to bind
           ply depot found that the contractor was paid for
                                                                    the Government in contractual agreements. To enhance
           work not performed and was not penalized for late
                                                                    as well as maintain professional skills, the program re-
           shipments. We concluded that FSS monitoring of
                                                                    quires each warranted contracting officer to complete
           contractor performance needed improvements.
                                                                    two mandatory courses or equivalency tests yearly, until
    OIG contract coverage of FSS continued to emphasize             all training requirements have been met. Under existing
    reviews of multiple award schedule contracts. In 77             regulations, failure to fulfill these requirements could re-
    contract reports issued this period, we recommended             sult in the revocation of a contracting officer's warrant.
    $54.3 million in cost avoidances and $1. 7 million in cost
                                                                    During this period, the OIG evaluated FSS Central Office
    recoveries. Two audits involving procurements of copying
                                                                    compliance with the training requirements. We found
    equipment accounted for almost $34 million of the rec-
                                                                    that 56 of 74 warranted contracting officers had not met
    ommended avoidance. Additional OIG effort resulted in a
                                                                    the requirements, and that 18 of those 56 had not sched-
    $470,746 recovery from an office machine maintenance
                                                                    uled required training for FY 1987. We attributed this
    firm. The firm voluntarily disclosed overbillings to
                                                                    noncompliance to the low priority placed on training by
    Federal agencies and the OIG quantified the loss to the
                                                                    supervisors, who indicated that they considered some of
    Government.
                                                                    the mandatory courses to have little value and that the
    Joint OIG audit and investigative work resulted in a            heavy contract workload took precedence over training.
    $50,000 civil fraud settlement. The settlement stemmed          An absence of defined responsibilities for managing the
    from the ~IG's disclosure that a contractor violated the        program also contributed to the noncompliance. For ex-
    price reduction/ defective pricing clauses in its GSA           ample, one division felt that its responsibilities were
    contract.                                                       limited to maintaining statistical data on training since
                                                                    it had no authority to require contracting officers to at-
    The OIG completed 60 investigative cases involving FSS          tend training or to take any action against those who did
    programs, operations, or employees. Notably, one inves-         not attend training courses.
    tigation, conducted jointly with the U.S. Secret Service,
    resulted in the conviction of an individual for illegal use     We concluded that revoking the warrants of those con-
    of a Government credit card. The individual had pur-            tracting officers not in compliance with the training re-
    chased a stolen credit card, and then used it on numerous       quirements would severely restrict FSS's ability to
    occasions.                                                      provide needed services to customer agencies. Therefore,

8
our June 25, 1987 report offered five recommendations to       be relevant since they would affect any future FSS con-
the Commissioner, FSS, to correct identified deficiencies.     tracting out of depot operations. Therefore, our July 24,
Some of the more significant recommendations involved:         1987 report recommended that the Commissioner, FSS:
  ..   Issuing written instructions to the heads of con-          •   Establish procedures requiring proof of shipment
       tracting components stressing the need for con-                prior to granting contractors credit for work
       tracting officers to comply with program training              performed.
       requirements.
                                                                 ..   Establish procedures requiring accountability over
  ..   Developing written operating procedures to assist in           the dispatch of small parcels and require all con-
       managing the contracting officer training program.             tractors to meter shipments.
  ..   Identifying the training needs of each contracting        .. Modify the automated support system to provide
       officer.                                                     computations of contractor payments based on
                                                                    work actually performed prior to any further con-
The Commissioner submitted responsive action plans
                                                                    tracting out of depot operations.
for implementing the report recommendations. Resolu-
tion was achieved on September 30, 1987.                       The Commissioner concurred with the recommenda-
                                                               tions in the draft report. We are awaiting action plans for
                                                               implementing the report recommendations.
$50,000 Civil Settlement
On September 25, 1987, a GSA typewriter equipment              Fraudulent Use of a Government Credit Card
supplier agreed to pay the Government $50,000 to settle
potential civil fraud issues. The Government alleged that      On September 25, 1987, an individual was sentenced in
the supplier failed to disclose general price reductions       U.S. District Court after pleading guilty to knowingly
granted during the term of its GSA contract.                   using an unauthorized Government credit card. He was
                                                               sentenced to 60 days work release, placed on 4 years pro-
Joint OIG audit and investigative effort disclosed that the
                                                               bation, and ordered to make restitution of $2,147 to the
firm sold items to its commercial customers at discounts
                                                               Government.
greater than those offered to GSA. Failure to disclose
these discounts violated the price reduction/defective         The sentencing was the result of a joint GSA OIG and
pricing clauses in its GSA contract.                           U.S. Secret Service investigation. The investigators
                                                               found that the subject had purchased, and then used on
The matter was referred to the Department of Justice,
                                                               numerous occasions, a stolen Government credit card.
which declined criminal prosecution, but accepted the
                                                               During an interview, he admitted the fraudulent use of
case for civil litigation. The settlement agreement was
                                                               the credit card and implicated other individuals in the
negotiated by representatives of the Department of Jus-
                                                               use of stolen Government credit cards.
tice Civil Division and the GSA OIG.
                                                               The investigation is continuing and additional arrests
                                                               and indictments are pending.
Contractor Operation of a Supply Depot
GSA, in compliance with Office of Management and
                                                               c.     Significant Preaward Audits
Budget Circular A - 76 policies for acquiring required         The OIG's preaward audit program provides information
Government services through non-Federal sources when           to contracting officers for use in negotiating contracts.
cost effective, contracted with a private sector firm to op-   The pre-decisional, advisory nature of pteaward audits
erate an FSS supply depot. During this period, the OIG         distinguishes them from other audits.
completed a review of depot operations after GSA officials
expressed concerns over the contractor's performance.
The review concluded that FSS procedures and the au-
tomated support system needed improvements to effec-           Preaward Questions $20.4 Million of Proposed
tively monitor contractor performance. For example, we         Cost
found that: the contractor incorrectly reportcd some
shipping datesj small package shipments were not me-           The OIG evaluated a response to a GSA solicitation for
tered j FSS personnel had to manually prepare daily pro-       the purchase and rental of copier equipment and sup-
duction reportsj and the automated support system              plies. Estimated sales under the contract are $188 million.
would not accept actual shipping dates. As a result, the
contractor was paid for work that was not accomplished         Our June 19, 1987 audit report advised the contracting of-
and late shipment deductions were not taken from con-          ficer of discounts not disclosed in the firm's offer that ex-
tractor payments.                                              ceeded the discounts offered to GSA. The terms of this
                                                               type contract entitle GSA to discounts at least equal to
Subsequent to the completion of the audit fieldwork, the       the best commercial customer in the same category. We
contract expired and the subject depot was closed. None-       further advised that the pricing structure for rental items
theless, the issues raised during the review continue to       did not accurately reflect proposed purchase discounts.

                                                                                                                               9
     As a result, rental payments on some models would ex-                              counts exceeded the best discounts offered to GSA. Ac-
     ceed the purchase price within one year, rendering the                             cordingly, the auditors recommended a cost avoidance of
     option to rent as uneconomical. In total, the auditors rec-                        $2 million.
     ommended a $20.4 million cost avoidance.
                                                                                        We are awaiting the contracting officer's position on the
     Negotiations with the contractor are currently underway.                           questioned costs.



     $13.5 Million Recommended Cost Avoidance                                           $502,000 Cost Avoidance
     The OIG evaluated a pricing proposal submitted in re-                              The OIG evaluated discount schedule and marketing
     sponse to a GSA solicitation for the purchase, rental, and                         data submitted in response to a GSA solicitation for the
     maintenance of copying equipment. Estimated sales un-                              purchase of special purpose clothing and equipment. Es-
     der the contract are $50 million.                                                  timated sales under the contract are $6.4 million.
     The June 23, 1987 audit report advised the contracting                            In our May 19, 1987 audit report, we advised the con-
     officer that discounts offered to commercial customers                            tracting officer that the firm's discount and sales data did
     were not in the firm's pricing proposal and that these dis-                       not properly disclose discounts offered to both commer-
     counts exceeded those offered to GSA. We also advised                             cial customers and another Federal agency. We also ad-
     that other concessions offered to large customers tend to                         vised that the firm did not disclose that some items
     negate the status of the Government as the "most favored                          manufactured by an affiliate company were being sold by
     customer./I Accordingly, the auditors recommended a                               that company, at substantially lower prices than were
     cost avoidance of $13.5 million.                                                  contained in the firm's offer, under the same multiple
                                                                                       award schedule contract. In addition, we advised that es-
     We are awaiting the contracting officer's position on the
                                                                                       timated requirements for the firm's products may be sig-
     questioned costs.
                                                                                       nificantly understated, which could adversely affect price
                                                                                       negotiations.
                                                                                       The contracting officer negotiated the contract and ob-
     Preaward Questions $2 Million of Proposed                                         tained $502,000 in pricing concessions. The contract was
     Cost                                                                              awarded on July IS, 1987.

     The OIG evaluated discount schedule and marketing
     data submitted in response to a GSA solicitation for the
     purchase, lease, maintenance, and repair of copying
     equipment. Estimated sales under the contract are
     $67.5 million.
                                                                                       D. Statistical Highlights
     Our May 6, 1987 audit report advised the contracting of-                          The following table compares OIG activity and accom-
     ficer that discounts offered to commercial customers                              plishments within FSS to the overall GSA totals for the
     were not disclosed in the firm's offer and that these dis-                        period.



                                                      Activity                                                          FSS         All GSA
          Audit Reports Issued ............................................................................... ..        82            313
          Recommended Cost Avoidance ............................................................... .              $54,312,661    $92,630,042
          Recommended Cost Recovery ................................................................ .               $1,739,039    $17,839,723
          Management Commitments to Avoid Costs ............................................. .                      $5,370,960   $119,406,367
          Management Commitments to Recover Funds ........................................ .                           $577,635     $4,282,586
          Percentage of Recommended Cost
            Avoidance Agreed to by Management .................................................. .                       54             75
          Percentage of Recommended Cost
            Recovery Agreed to by Management... ................................................ ..                      56            88
          Unresolved Audits Older Than 6 Months (Excluding Preawards) ............. .                                                   2
          Implementation Reviews Finding Unimplemented Recommendations ..... .                                                          7
          New Investigative Cases .......................................................................... .           73           225
          Criminal Referrals (Subjects) .................................................................. ..            47            85
          Civil Referrals (Subjects) .......................................................................... .        15            22
          Administrative Referrals (Subjects) ......................................................... ..               58           211
          Suspension/Debarment Referrals (Subjects) ........................................... .                        49            94
          Indictments/Informations/Complaints ....................................................... .                  10            16
          Successful Criminal Prosecutions ........................................................... .                 12            18
          Civil Settlements/Judgments .................................................................... .              2             2

10
E. Significant Audits From Prior                            Product Warranties

   Reports                                                  Period First Reported: October 1, 1986 to March 31, 1987
                                                            This OIG review of batch-produced materials identified
Under GSA's audit resolution system, the OIG is respon-     that GSA had difficulty obtaining adequate compensa-
sible for ensuring resolution of audit recommendations.     tion for deficient products because contracts lacked eq-
The Audit Resolution and Internal Controls Division,        uitable adjustment provisions. The report contained
Office of Administration, is responsible for ensuring im-   three recommendations; one has been implemented.
plementation of resolved audit recommendations. That
office furnished the following status information.          The remaining two recommendations require revisions
                                                            to: (1) warranty clauses to include an equitable price
One significant audit from a prior Report to the Congress   adjustment provision; and (2) procedures for exercising
is not implemented. It is being implemented in accor-       warranty action. Full implementation of both recommen-
dance with currently established milestones.                dations is scheduled for February 1988.




                                                                                                                       11
     SECTION IV-INFORMATION RESOURCES
     MANAGEMENT SERVICE

     The Information Resources Management Service (IRMS)          GSA contracts specify that the Government is to be
     coordinates and directs a comprehensive Government-          charged the price in effect at the time of order placement
     wide program for managing and procuring automated            or on the shipping date, whichever is lower. Our analysis
     data processing (ADP) and telecommunications equip-          of sales to the Government showed that, although ship-
     ment and services. In the second half of FY 1987, IRMS       ments occurred subsequent to a price reduction, prices
     obligated an estimated $16 million in direct operating       charged reflected the higher pre-reduction amounts in ef-
     expense appropriations. Estimated sales through the In-      fect when the orders were placed. The auditors also found
     formation Technology Fund during the same period were        that the firm reclassified some products into categories
     almost $515 million.                                         having a lower discount than that required by the con-
                                                                  tract and misclassified some sales as being non-dis-
     Collectively, the OIG expended some 23,972 direct            countable items. Consequently, Government purchasers
     staffhours pursuing audit and investigative assign-          did not receive the discounts to which they were entitled.
     ments. This figure reflects 18 percent of total OIG direct
     staffhours.                                                  In the June 22, 1987 audit report, the auditors recom-
                                                                  mended a cost recovery exceeding $3.2 million.


     A. Overview of OIG Activity
     This period, OIG audit coverage of IRMS primarily fo-
                                                                  c.    Significant Preaward Audits
     cused on contracting activities, particularly preaward au-   The OIG's preaward audit program provides information
     dits of multiple award schedule contracts. We issued 74      to contracting officers for use in negotiating contracts.
     contract audit reports recommending almost $23 mil-          The pre-decisional, advisory nature of preaward audits
     lion in cost avoidances and $12.9 million in recoveries.     distinguishes them from other audits.
     Notably, a single OIG postaward audit report resulted in
     a management commitment to recover $3.2 million.
     Also, management committed itself to avoid expendi-          $4.7 Million Recommended Cost Avoidance
     tures of almost $96 million, based on recommendations
     contained in the consolidated report on the President's      The OIG evaluated discount schedule and marketing
     Council on Integrity and Efficiency review of Federal        data submitted in response to a GSA solicitation for the
     Telecommunications System utilization. This report was       purchase of communications equipment. Estimated
     issued during the preceding six-month period and was         sales under the contract are $37 million.
     highlighted in our last Report to the Congress.
                                                                  Our July 15, 1987 audit report advised the contracting of-
     OIG investigators completed 12 cases this period involv-     ficer that discounts offered to GSA were substantially
     ing IRMS programs, operations, and employeesj most in-       lower than those offered to commercial customers. This
     volved white collar crimes.                                  type of contract entitles GSA to discounts at least equal
                                                                  to the best commercial customer in the same category.
                                                                  We also advised that several of the offered products did
                                                                  not meet the test of commerciality. Accordingly, the au-
     B. Significant Audits                                        ditors recommended a cost avoidance of $4.7 million.
     This section summarizes significant postaward audits         We are awaiting the contracting officer's position on the
     dealing with IRMS operations. Significant preaward           questioned costs.
     contract audits are presented in Section C.


     Management Commitment to Recover                             Preaward Questions $3.8 Minion of Proposed
     $3.2 Million                                                 Cost
                                                                  The OIG evaluated discount schedule and marketing
     On August 13, 1987, an IRMS contracting officer issued a     data submitted in response to a GSA solicitation for the
     final decision regarding the recovery of over $3.2 million   purchase of general purpose ADP equipment and soft-
     from a multiple award schedule supplier of ADP equip-        ware. Estimated sales under the contract are $146 million.
     ment. The recovery resulted from an OIG postaward au-
     dit disclosing that the contractor did not adjust            Our September 30, 1987 audit report advised the con-
     Government orders as required by its GSA contracts to        tracting officer that preferential discounts offered to
     reflect price reductions.                                    commercial customers exceeded those offered to GSA.

12
Full disclosure of discounts is necessary in order for GSA                        the firm's proposal were overstated and/or unallowable.
to negotiate discounts at least equal to the best commer-                         The auditors found that proposed direct labor hours were
cial customer in the same category. Accordingl~ the au-                           not supported by the firm's accounting records: actual
ditors recommended a $3.8 million cost avoidance.                                 labor hours were substantially lower and estimated costs
                                                                                  were significantly overstated. We therefore recom-
We are awaiting the contracting officer's position on the                         mended a $1.8 million cost avoidance.
questioned costs.
                                                                                  We are awaiting the contracting officer's position on the
                                                                                  questioned costs.
$1.8 Million Recommended For Avoidance
The OIG evaluated a cost or pricing proposal submitted
in response to a GSA solicitation for the purchase of ra-
dio, paging, communications, and security equipment.                              D. Statistical Highlights
Estimated sales under the contract are $5 million.
                                                                                  The following table compares OIG activity and accom-
Our September 25, 1987 audit report advised the con-                              plishments within IRMS to the overall GSA totals for the
tracting officer that the cost or pricing data contained in                       period.

                                                 Activity                                                         IRMS         All GSA

     Audit Reports Issued .................................................................................         75            313
     Recommended Cost Avoidance ............................................................... .              $23,332,291    $92,630,042
     Recommended Cost Recovery ............................................................... ..              $12,949,849    $17,839,723
     Management Commitments to Avoid Costs ............................................ ..                     $97,641,790   $119,406,367
     Management Commitments to Recover Funds ........................................ .                         $3,348,009     $4,282,586
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................................................. .                      76              75
     Percentage of Recommended Cost
       Recovery Agreed to by Management..: ................................................ ..                     100            88
     Unresolved Audits Older Than 6 Months(Exciuding Preawards) ............ ..                                                    2
     Implementation Reviews Finding Unimplemented Recommendations .... ..                                                          7
     New Investigative Cases ......................................................................... ..           12           225
     Criminal Referrals (Subjects) .................................................................. ..             7            85
     Civil Referrals (Subjects) ......................................................................... ..         1            22
     Administrative Referrals (Subjects) ......................................................... ..                6           211
     Suspension/Debarment Referrals (Subjects) .......................................... ..                         7            94
     Indictments/Informations/Complaints ....................................................... .                                16
     Successful Criminal Prosecutions ........................................................... ..                              18
     Civil Settlements/Judgments .................................................................... .                            2


E. Significant Audits From Prior                                                  Telecommunications Systems Management

   Reports                                                                         Period First Reported: October 1, 1985 to March 31, 1986
                                                                                  This OIG review concluded that IRMS needed to
                                                                                  strengthen its oversight role relative to Government tele-
                                                                                  communications systems. We therefore made 12 recom-
Under GSA's audit resolution system, the OIGis respon-                            mendationsj 5 have been implemented.
sible for ensuring resolution of audit recommendations.
                                                                                  Two of the seven remaining recommendations, which
The Audit Resolution and Internal Controls Division,
                                                                                  generally involve actions to improve agency procure-
Office of Administration, is responsible for ensuring im-
                                                                                  ments of telecommunications systems, are scheduled for
plementation of resolved audit recommendations. That
                                                                                  implementation by December 31, 1987. One other rec-
office furnished the following status information.
                                                                                  ommendation is to be implemented by March 31, 1988.
TWo IRMS audits highlighted in prior Reports to the                               Currentl~ the remaining four recommendations carry an
Congress have not been fully implemented. Both reports                            open due date to allow for the Office of Management and
are being implemented in accordance with currently es-                            Budget review of the proposed revisions to the procure-
tablished milestones.                                                             ment regulations.




                                                                                                                                               13
     Teleprocessing Services Program                            processing services. Accordingly, we made one recom-
                                                                mendation to assure verification of invoices by Federal
     Period First Reported: October 1, 1985 to March 31, 1986   agencies.
                                                                The recommendation consisted of four parts; three are
     This OIG review found that IRMS needed to strengthen       complete. The remaining part is scheduled for implemen-
     its oversight role over payments for commercial data       tation by October 31, 1987.




14
SECTION V-OTHER GSA COVERAGE

Other GSA services and staff offices comprised the focus       We conveyed our concerns to management early in 1987
for the remainder of the OIG's efforts this period. The        so that corrective actions could be implemented. We also
OIG devoted approximately 16,092 direct staffhours pur-        advised management throughout the reporting period on
suing audit and investigative assignments within these         the appropriateness of actions being taken as part of the
other areas of GSA. This figure reflects 12 percent of total   1987 effort.
OIG direct staffhours.
                                                               Our May 19, 1987 report directed five recommendations
                                                               to the Associate Administrator for Administration to
                                                               correct deficiencies. These included:
A. Overview of OIG Activity                                      •   Increasing the involvement of the Management
                                                                     Control Officers in each Service or Staff Office in
OIG coverage of the Federal Property Resources Service,              planning, directing, and managing the program.
the Office of the Comptroller, the Office of Administra-
tion, and other GSA organizations consisted primarily of         •   Updating the control evaluation procedures and
internal management reviews. These reviews resulted in               guidelines and tailoring training to the educational
findings and recommendations in areas such as financial              needs of the specific Service or Staff Office.
operations, use of overtime, and imprest funds. The OIG          •   Emphasizing to each Head of Service or Staff Office
also provided extensive technical assistance and advice              the importance of the program and the need for ac-
relative to implementation of the Federal Managers' Fi-              tive participation.
nancial Integrity Act (FMFIA).
                                                               The Associate Administrator for Administration sub-
Two especially noteworthy reviews aided management in          mitted responsive action plans for implementing the re-
taking action to:                                              port recommendations. Resolution was achieved on
  •   Improve GSA's process for implementing Section 2         August 25, 1987.
      of the FMFIA.
  •   Strengthen controls over non-Federal accounts
      receivables.                                             Controls Over Non-Federal Accounts Receivable
In addition, utilization of information contained in OIG       The OIG completed an evaluation of financial operations,
preaward audit reports resulted in management success-         focusing on $26 million in various types of non-Federal
fully negotiating $10.7 million in pricing concessions on      accounts receivable. Five separate reviews identified that
a ferromanganese conversion contract.                          internal controls require strengthening, since they do not
The OIG also completed 47 investigations involving the         ensure that: transactions are accurately and timely
personnel, programs, and operations of these other GSA         posted; file documentation supports the receivable bal-
areas.                                                         ances; billings are complete and timely processed; late
                                                               payment charges are assessed; and follow-up actions are
                                                               taken to collect on delinquent accounts. As a result, we
                                                               found that mortgage account balances were understated
                                                               by $2.6 million, reported FY 1986 non-Federal stockpile
                                                               sales were overstated by $12.1 million, and late payment
B. Significant Audits                                          charges totaling $449,000 were not assessed.
This section summarizes significant internal audits in-        In five reports issued during September 1987, we directed
volving the programs and operations of the remaining           21 recommendations to the Regional Administrator to
GSA services and staff offices. Significant preaward con-      correct these deficiencies. These included recommenda-
tract audits are presented in Section C.                       tions to:
                                                                 •   Establish procedures, or comply with existing
                                                                     guidelines, to ensure accurate accounts receivable.
Federal Managers' Financial Integrity Act                        •   Require periodic supervisory reviews to ensure
                                                                     compliance with established procedures.
This period, the Ole continued to assist management in
meeting the requirements of the Office of Management             •   Make necessary adjustments to accounting records
and Budget Circular A-123. As part of this effort, the OIG           to reflect accurate account balances.
expended considerable resources to evaluate GSA's proc-          •   Organize and document receivable files to support
ess for implementing Section 2 of the Federal Managers'              the validity of the receivables account balances.
Financial Integrity Act. Based on our examination of in-
ternal control assessments, the OIG concluded that             The Regional Administrator ha~ initiated corrective ac-
GSA's review and evaluation process has improved sig-          tions in response to the recommendations in the draft re-
nificantly, but could not yet be relied upon as the primary    ports. We are awaiting action plans for implementing the
basis for reporting.                                           recommendations in each report.
                                                                                                                            15
     c.    Significant Preaward Audits                                                   $93 million pricing proposals for the conversion of Na-
                                                                                         tional Defense Stockpile manganese ore into high-
     The OIG's preaward audit program provides information                               carbon ferromanganese.
     to contracting officers for use in negotiating contracts.                           The September 15, 1986 and March 23, 1987 audit re-
     The pre-decisional, advisory nature of preaward audits                              ports advised the contracting officer that costs contained
     distinguishes them from other audits.                                               in the proposal were overstated and/or unallowable. We
                                                                                         questioned $10.8 million in the following cost categories:
                                                                                         ore conversion, outloading, transportation, handling, risk
                                                                                         contingency, and cost of money.
     $10.7 Million Cost Avoidance Through Preaward
     Audits
                                                                                         D. Statistical Highlights
     On April 22, 1987, management avoided $10.7 million in
     costs by successfully negotiating pricing concessions in                           The following table compares OIG activity and accom-
     that amount from a ferromanganese contractor. The ac-                              plishments in other GSA areas to the overall GSA totals
     tion resulted from two OIG preaward audits of the firm's                           for the period.

                                                      Activity                                                       Other GSA       All GSA
          Audit Reports Issued ................................................................................ .         16            313
          Recommended Cost Avoidance ............................................................... .                  $289,192    $92,630,042
          Recommended Cost Recovery ............................................................... ..                $3,041,095    $17,839,723
          Management Commitments to Avoid Costs ............................................. .                      $10,912,482   $119,406,367
          Management Commitments to Recover Funds ........................................ .                                         $4,282,586
          Percentage of Recommended Cost
            Avoidance Agreed to by Management ................................................. ..                       99              75
          Percentage of Recommended Cost
            Recovery Agreed to by Management... ................................................. .                                      88
          Unresolved Audits Older Than 6 Months (Excluding Preawards) ............ ..                                                     2
          Implementation Reviews Finding Unimplemented Recommendations ..... .                                                            7
          New Investigative Cases ......................................................................... ..           50            225
          Criminal Referrals (Subjects) ................................................................... .                           85
          Civil Referrals (Subjects) ................................................................ '" ....... .                       22
          Administrative Referrals (Subjects) ......................................................... ..               54            211
          Suspension/Debarment Referrals (Subjects) .......................................... ..                                       94
          Indictments/Informations/Complaints ....................................................... .                                 16
          Successful Criminal Prosecutions ........................................................... ..                               18
          Civil Settlements/Judgments ................................................................... ..                             2


     E. Significant Audits From Prior                                                   Misdassification of Funds

        Reports                                                                         Period First Reported: October 1, 1986 to March 31, 1987

     Under GSA's audit resolution system, the OIG is respon-                            This OIG review found that GSA was improperly classi-
     sible for ensuring resolution of audit recommendations.                            fying building repair projects as maintenance repairs,
     The Audit Resolution and Internal Controls Division,                               creating potentially adverse consequences regarding
     Office of Administration, is responsible for ensuring im-                          fund control. As of September 30, 1987, this report was
     plementation of resolved audit recommendations. That                               still unresolved.
     office furnished the following status information.                                 Six of the seven recommendations in the report have
     With regard to GSA services and staff offices other than                           been resolved; however, differences of opinion remain re-
     PBS, FSS, and IRMS, only one significant audit from a                              garding charges requiring reclassification. The OIG is
     prior Report to the Congress is not implemented; it has                            continuing to work with management to resolve these
     not yet been resolved.                                                             disagreements and obtain a responsive action plan.




16
SECTION VI-STATISTICAL SUMMARY OF OIG
ACCOMPLISHMENTS

The previous sections of this report presented OIG activ-    The OIG opened 225 investigative cases and closed 199.
ity and accomplishments by GSA service and staff office.     We referred 39 cases (85 subjects) for criminal prosecu-
In the pages that follow, overall OIG accomplishments        tion, 8 cases (22 subjects) for civil litigation, and 12 cases
are comprehensively reported. To facilitate cross-           for further investigation by other Federal or State agen-
referencing, the GSA organizational orientation is main-     cies. Based on these and prior referrals, 17 cases (24 sub-
tained in these summary statistics. However, there is not    jects) were accepted for criminal prosecution and 4 cases
a one-to-one correspondence between the data reported        (8 subjects) were accepted for civil litigation.
by GSA organization and the overall statistics, because
a portion of our worl< involved non-GSA operations.          Criminal cases originating from OIG referrals resulted
                                                             in 16 indictmentslinformations/complaints and 18 suc-
                                                             cessful prosecutions. Civilly, OIG referrals resulted in 11
                                                             civil fraud complaints and 2 settlements. These actions
                                                             resulted in determinations that $94,257 is owed the Gov-
A. DIG Accomplishments                                       ernment. Through investigations, we also identified for
                                                             recovery money/property worth $404,459.
During the reporting period, the OIG issued 313 audit re-
                                                             We referred 192 cases to GSA management for adminis-
ports, including 26 performed for the OIG by another
                                                             trative action. This total includes 28 case referrals (94
agency. These reports contained financial recommenda-
                                                             subjects) for suspension/debarment and 164 case referrals
tions totaling $110,469,765, including $92,630,042 in
                                                             (211 subjects) for other administrative actions. Based on
recommendations for more efficient use of resources
                                                             these and prior referrals, management debarred 27 con-
(cost avoidance) and $17,839,723 in recommendations for      tractors, suspended 20 contractors, reprimanded 19 em-
the recovery of funds. Based on audit reports issued in      ployees, suspended 11 employees, demoted 1 employee,
this and prior periods, management committed itself to
                                                             and terminated 16 employees.
use $119,406,367 more efficiently and to recover
$4,282,586. In addition, OIG effort also contributed to an   The following subsection presents detailed information
unsolici ted recovery of $470,746 from a GSA contractor.     on these and other quantifiable accomplishments.




                                                                                                                              17
     B. Summary Statistics                                               2. Audit Reports Resolved
                                                                         Table 2 summarizes the universe of audits to be resolved
                                                                         by the OIG and GSA management during this period, as
     1. Audit Reports Issued                                             well as the status of those audits as of September 30,
                                                                         1987. Fifty-two reports more than 6 months old were un-
     Table 1 summarizes OIG audit reports issued this period             resolved as of September 30, 1987; but 50 of them were
     by GSA program area. The table includes 26 audits, rec-             preaward audits, which are not subject to the 6-month
     ommending a total cost avoidance of $5,110,876, which               resolution requirement. Thus, only two reports were ac-
     were performed for the GSA OIG by the Defense Contract              tually overdue - a statistic that reflects creditably on
     Audi t Agency.                                                      GSA's audit resolution efforts.




                                                    Table 1.   Summary of OIG Audits
                                                               Percentage          Recommended             Recommended
                        GSA                        Reports      of Total               Cost                    Cost
                      Program                      Issued        Audits              Avoidance               Recovery

          PBS
          -Internal .......................... .     47                                $ 1,273,000             $    55,827
          -Contract. ........................ .      93                                 ~3,422,898              _~~~,91~
                                                    140            45                  $14,695,898             $   109,740

          FSS
          -Internal .......................... .       5                               $                       $
          -Contract. ........................ .      77
                                                     --
                                                                                        §4,312,661_             ~~739,039
                                                     82            26                  $54,312,661             $ 1,739,039

          IRMS
          -Internal .......................... .      1                                $   534,000             $      5,306
          -Contract. ........................ .      74                                 22,798,291
                                                                                        --~----
                                                                                                                1b944,~43
                                                     75            24                  $23,332,291             $12,949,849

          Other GSA
          -Internal ......................... ..      16                               $   289,192             $ 3,041,095
          -Contract. ........................ .                                                                 ----~




                                                      16             5                 $   289,192             $ 3,041,095

          TOTAL .............................. .    313            100                 $92,630,042             $17,839,723
          TOTAL COSTS
          RECOMMENDED ............. .               $110,469,765




18
It should be noted that Table 2 does not include reports                      33 reports (4 issued this period, 29 issued in prior pe-
excluded from the resolution system because they per-                         riods) had been excluded from the resolution system for
tain to ongoing investigations. As of September 30, 1987,                     the latter reason.




                                                Table 2.            Resolution of OIG Audits
                                                                                   Reports With                    Total
                                                                     No. of          Financial                   Financial
                                                                    Reports      Recommendations              Recommendations

     Unresolved as of 4/1/87
     -Less than 6 months old ......................... .              131                 88                     $152,928,108
     -More than 6 months old ......................... .               33                 31                       19,193,421
     Reports issued this period ........................ .            309                181                      108,689,325
     TOTAL TO BE RESOLVED ..................... ..                    473                300                    $280,810,854

     Reports resolved
     -Issued prior periods ............................... .          112                 72                    $156,177,046
     -Issued current period ............................ .            152                 67                      37,287,503
     TOTAL RESOLVED ................................. .               264                139                    $193,464,549

     Unresolved as of 9/30/87
     -Less than 6 months old ......................... .              157                114                    $ 71,401,822
     -More than 6 months old
       -Preaward .......................................... ..         50                 47                       15,944,483
       -Internal .............................................. .       2
     TOTAL UNRESOLVED ............................ .                  209                161                    $ 87,346,305




                                                                                                                                         19
     3. Resolution Decisions on Financial                                      dividual cases, contracting officers resolved to seek sav-
                                                                               ings in excess of the amounts recommended by the OIG.
        Recommendations
                                                                               In accordance with GSA Order ADM 2030.2A, resolu-
                                                                               tion decisions on financial recommendations contained
     Table 3 provides detailed information on the 139 reports                  in contract audit reports result in resolved cost avoidance
     involving financial recommendations of $193,464,549                       or recovery. Management commitments occur subse-
     tha t are identified in Table 2 as being resolved this period.            quently, at the time of contract settlement. For internal
     Notably, $164,166,739 or almost 85 percent was upheld in                  audits, management commitments occur at the time of
     the audit resolution process. In fact, in a number of in-                 resolution.




                                             Table 3.        Resolution Decisions on OIG Audits
                                                             Recommended            Resolved       Recommended               Resolved
                             GSA                                 Cost                 Cost             .Cost                   Cost
                           Program                            Avoidance             Avoidance        Recovery                Recovery

           PBS
           -Internal ................................... .    $    1,622,426    $    1,009,426         $ 362,862         $ 344,772
           -Contract ................................. .          14,7~6,395    ~213,09~                   _1?,08Q          12,170
                                                              $ 16,388,821      $ 17,122,520           $ 374,942         $ 356,942
          FSS
          -Internal ................................... .     $                $                       $                 $
          -Contract ................................. .         29,912,427
                                                              -.--.~-
                                                                                __ 30,24:0,359          1,031,543
                                                                                                        --"_.-   --~
                                                                                                                          1,031,130
                                                                                                                          - - --------
                                                              $ 29,912,427     $ 30,240,359            $1,031,543        $1,031,130
          IRMS
          -Internal ................................... .     $125,669,611     $ 96,460,611            $     5,306       $
          -Contract ................................. .          5,295,042       __4,138, 15 i          .3,99?,501_          4,Q81,~86
                                                              $130,964,653     $100,598,765            $3,997,807        $4,081,686
          Other GSA
          -Internal ................................... .     $                $                       $                 $
          -Contract ................................. .         10,794,356
                                                              ~-~~----~
                                                                                _~?35,337               -.-~-             -~---




                                                              $ 10,794,356     $ 10,735,337            $                 $

          TOTAL ....................................... .     $188,060,257     $158,696,981            $5,404,292        $5,469,758

           TOTAL
           RESOLVED
           COSTS ...................................... .     $164,166,739




20
4. Contract Audit Settlements                                            in negotiations with contractors. Overall, management
                                                                         commitments on GSA audits represented over 79 percent
Table 4 compares contract audit resolution amounts with                  of the resolved amounts.
the corresponding management commitments achieved




                                    Table 4.          Summary of Contract Audit Settlements
                                                                      Avoidance                         Recovery
                    GSA                          No. of          Costs      Management            Costs     Management
                  Program                       Reports         Resolved    Commitment           Resolved   Commitment

     PBS
     -Prior. ............................. ..     36           $ 4,745,598     $ 3,763,868      $  97,532        $
     -Current .......................... .        22             1,357,137      _~l,?_~            12,170            12,170
                                                  58           $ 6,102,735     $ 4,471,709      $ 109,702        $   12,170
     FSS
     -Prior ............................... .     37           $ 5,452,145     $ 2,979,256      $ 953,821        $ 493,766
     -Current .......................... .        21             3,115,750
                                                               ~~~-""-~--
                                                                                _2A91,70~           83,869
                                                                                                 ----
                                                                                                                    83,869
                                                                                                                  ------
                                                  58           $ 8,567,895     $ 5,370,960      $1,037,690       $ 577,635
     IRMS
     -Prior ............................... .     16           $ 2,595,679     $ 1,181,179      $ 225,653        $ 141,776
     -Current .......................... .        21
                                                 --
                                                                                                 3,206,233
                                                                                                 -~--~"-
                                                                                                                  3,206,233
                                                  37           $ 2,595,679     $ 1,181,179      $3,431,886       $3,348,009
     Other GSA
     -Prior ............................... .       4          $10,912,482     $10,912,482      $                $
     -Current .......................... .                     --~-~--
                                                                                                                  ------
                                                    4          $10,912,482     $10,912,482      $                $
     TOTAL ............................... .     157           $28,178,791     $21,936,330      $4,579,278       $3,937,814

     TOTAL
     MANAGEMENT
     COMMITMENTS................                 $25,874,144




5. Total Management Commitments                                          6. Recoveries
                                                                         The General Accounting Office recommended that OIG
                                                                         Reports to the Congress include data on actual monetary
Drawing upon the information presented in Tables 3 and                   recoveries in addition to management commitment in-
4, OIG internal and contract audits involving GSA pro-                   formation. Although such a requirement has not yet been
grams resulted in management commitments to more                         instituted, the GSA OIG requested data on actual audit
efficiently use $119,406,367 ($95,925,000 of which re-                   recoveries from GSA's Audit Resolution and Internal
lates to the President's Council on Integrity and Effi-                  Controls Division.
ciency review of Federal Telecommunications System
utilization) and to recover $4,282,586. In addition, OIG                 Between April I, 1987 and September 30, 198" Agency
effort also contributed to an unsolicited recovery of                    records show that $1,018,895 was recovered and depos-
$470,746 from a GSA contractor.                                          ited in the Treasury as the result of OIG audits.




                                                                                                                                   21
     7. Audit Followup                                                                     A report on each implementation review is distributed to
                                                                                           the cognizant management official and to the Audit Res-
     GSA Order ADM 2030.2A places primary responsibility                                   olution and Internal Controls Division.
     for follow up on the implementation of resolved audit rec-
     ommendations with the Audit Followup Official. The
     Audit Resolution and Internal Controls Division, Office                               8. Investigative Workload
     of Administration, acts as staff to the Audit Followup Of-
     ficial in this function.                                                              Table 5 presents detailed information on investigative
                                                                                           workload by case category. The OIG opened 225 cases
     The OIG performs its own independent reviews of imple-
                                                                                           and closed 199 cases; only 8 of these cases were admin-
     mentation actions on a test basis. This period, the OIG                               istratively closed without referral.
     performed 41 implementation reviews. Management had
     successfully implemented the recommendations con-                                    In addition to these cases, the OIG received and evalu-
     tained in 34 of these reviews. In the other 7 instances,                             ated 151 complaints!allegations from sources other than
     recommendations were not being implemented in ac-                                    the Hotline that involved GSA employees and programs.
     cordance with the action plans. All of these audits in-                              Based upon an analysis of these allegations, OIG inves-
     volved PBS programs.                                                                 tigations were not warranted.




                                                           TableS.              Investigative Workload
                                    Case                                        Cases Open         Cases        Cases        Cases Open
                                   Category                                       4/1/87          Opened        Closed          9/30/87
          White Collar Crimes .....................................                194               87            74             207
          Other Crimes Involving GSA Operations ......                               50              21            34              37
          Contractor Suspension/Debarment .............                              41              22            21              42
          Employee Misconduct.. ................................                     35              38            27              46
          Other ............................................................
                                                                                   -
                                                                                     21              57            43              35
          TOTAL .........................................................          341              225           199             367



     Table 6 distributes the 225 new investigative cases                                  within the white collar crime category. Most of the new
     opened this period (Table 5) by case category and GSA                                cases (72 percent) involved PBS and FSS programs.
     program area. Notabl~ 39 percent of the cases opened fell




                                        Table 6.            Distribution Of Cases Opened This Period
                                    Case                                                                                        Other
                                   Category                                        PBS              FSS          IRMS           GSA
          White Collar Crimes .................................... .                36               38             9              4
          Other Crimes Involving GSA Operations ..... .                             13                7                            1
          Contractor Suspension/Debarment ............ .                             8               13
          Employee Misconduct. ................................ .                   29                7                            2
          Other. .......................................................... .        4                8             2             43
          TOTAL ........................................................ .          90               73           12              50




22
9. Referrals                                                                        The status of OIG administrative referrals is as follows:

The OIG makes three types of referrals to officials out-                                                                                    Cases     Subjects
side GSA: criminal, civil, and investigative. During this
period, we referred 39 cases involving 85 subjects to the                              Pending Decision as of 411/87 .. .                     40         56
Department of Justice or other authorities for criminal                                Referrals .................................... .      164        211
prosecutive consideration. The status of OIG criminal                                  Action Completed .................... ..              150        191
referrals is as follows:                                                               Pending Decision
                                                                                         as of 9/30/87 .......................... .           54         76
                                                       Cases        Subjects        Of the 164 cases referred for administrative action this
  Pending Prosecutive Decision                                                      period, 49 cases (63 subjects) involved GSA employees.
    as of 4/1/87 ............................ .          26              42         As a result of these and prior referrals, management took
  Referrals .................................... .       39              85         the following actions against GSA employees:
  Declinations ............................. .           28              53           Reprimands................................             19
  Accepted for Prosecution .......... .                  17              24           Suspensions................................            11
  Pending Prosecutive Decision
                                                                                      Demotions .................................             1
    as of 9/30/87 .......................... .           21              50
                                                                                      Terminations..............................             16
The OIG also referred 8 cases involving 22 subjects to
either the Civil Division of the Department of Justice or
a U.S. Attorney for civil fraud litigation consideration.
The status of OIG civil referrals is as follows:                                    11. Contractor Suspensions and
                                                                                        Debarments
                                                       Cases        Subjects
  Pending Litigation Decision as                                                    This period, the OIG referred 7 cases involving 25 subjects
    of 4/1/87 ................................ .          8              12         for suspension and 21 cases involving 69 subjects for debar-
  Referrals .................................... .        8              22         ment. As a result of these and prior referrals, management
  Declinations ............................. .            2               3         imposed 20 suspensions and 27 debarments. Management
  Accepted for Litigation ............ ..                 4               8         disapproved 5 suspensions and 16 debarments.
  Pending Litigation Decision as                                                    The status of OIG suspension and debarment referrals is
    of 9/30/87 ............................. ..          11              23         as follows:
The OIG made 12 case referrals to other Federal or State
agencies for further investigation or other action.                                                  Suspensions                            Cases     Subjects
                                                                                      Pending as of 4/1187 ................. .                3           6
                                                                                      Referrals .................................... .        7         25
                                                                                      Action Completed ..................... .                7         25
                                                                                      Pending as of 9/30/87 .............. ..                 2          6

                                                                                                     Debarments                             Cases     Subjects
10. Administrative Referrals and Actions
                                                                                      Pending as of 4/1187 ................. .               17         39
Frequently, OIG investigations disclose nonprosecutable                               Referrals .................................... .       21         69
wrongdoing on the part of GSA employees, contractors, or                              Action Completed .................... ..               22         43
private individuals doing business with the GSA. The                                  Pending as of 9/30/87 .............. ..                18         65
OIG refers these cases to GSA officials for administrative
action.                                                                             12. Summary of Referrals by GSA
During the period, we referred 164 cases involving 211                                  Program Area
subjects for administrative action. In addition, we re-
ferred 68 cases involving 88 subjects to GSA officials for                         Table 7 summarizes OIG referrals this period by type of
informational purposes only.                                                       referral and GSA program area.


                                         Table 7.             Summary Of OIG Subject Referrals
                                GSA                                                                            Adminis-                   Suspension/
                              Program                                    Criminal          Civil                trative                    Debarment
     PBS .............................................................        31              6                      93                       38
     FSS..............................................................        47             15                      58                       49
     IRMS............................................................          7              1                        6                          7
     Other GSA ................................................. ..                                                  54
     TOTAL .........................................................          85             22                    211                        94
                                                                                                                                                                 23
     13. Criminal and Civil Actions                                                     complaints against 11 individuals. In addition, settle-
                                                                                        ments were reached in 2 cases with 2 subjects.
     Cases accepted for criminal prosecution during this and                            Table 8 summarizes individual criminal and civil actions
     prior periods resulted in 16 indictmentslinformations/                             by GSA program area. In addition, there were 2 unsuc-
     complaints and 18 successful prosecutions. Civil refer-                            cessful civil cases against 3 subjects and 1 unsuccessful
     rals from this and prior periods resulted in civil fraud                           criminal case against 2 subjects.




                                           Table 8.           Summary Of Criminal And Civil Actions
                                                                                     Indictments/                             Civil
                                        GSA                                         Informations/      Successful         Settlements/
                                      Program                                         Complaints      Prosecutions        Judgments
          PBS ................................................................. .         6                  6
          FSS ................................................................. .        10                 12                  2
          IRMS ................................................................
          Other GSA ....................................................... .
          TOTAL ............................................................ .           16                 18                  2




     14. Monetary Results                                                               amounts do not necessarily reflect actual monetary
                                                                                        recoveries.
                                                                                        In addition, the OIG identified for recovery $404,459
     Table 9 presents the amounts determined to be owed the                             in money and/or property during the course of its
     Government as a result of criminal and civil actions. The                          investigations.




                                                    Table 9.           Criminal And Civil Recoveries
                                                                                      Criminal              Civil                Total

          Fines and Penalties ........................................ ..             $ 4,450              $                    $ 4,450
          Settlements/Judgments .................................. .                                        58,000               58,000
          Restitutions ..................................................... .         31,807                                    31,807
          TOTAL ............................................................ .        $36,257              $58,000              $94,257




     15. OIG Subpoenas
     During the period, 19 OIG subpoenas were issued.




24
SECTION VII-REVIEW OF LEGISLATION
AND REGULATIONS

Section 4(a)(2) of the Inspector General Act of 1978 re-             Treasury all amounts saved via commercial activ-
quires the OIG to review existing and proposed legisla-              ities contracting, because this provision may re-
tion and regulations relating to GSA programs and                    duce the incentive of agencies to contract out
operations. To fulfill this legislated responsibility, the           legitimate commercial activities.
OIG maintains a clearance system, coordinated by our
legal staff, that ensures OIG review of all proposed leg-       ..   S. 821, the proposed National Oceanic and Atmos-
islation, regulations, and internal directives affecting             pheric Administration Independent Establishment
any aspect of GSA operations.                                        Act of 1987 and S. 1600, the Federal Aviation
                                                                     Administration Independent Establishment Act of
                                                                     1987. We recommended incorporating into both
                                                                     bills a provision to create a statutory Inspector
A. Legislation/Regulations                                           General.
   Reviewed                                                     ..   H. R. 1549, a bill to amend the Privacy Act of 1974.
                                                                     We expressed strong concerns about the potential
During this period, the OIG reviewed 327 legislative                 for conflicts between the Individual Privacy Protec-
matters and 113 proposed regulations and directives. We              tion Board and investigative agencies covered by
provided substantive comments on 25 legislative matters              the proposed law. We noted that the subject of an
and 12 regulations and directives.                                   investigation could allege certain Privacy Act vio-
                                                                     lations to the Board in order to discover informa-
                                                                     tion concerning an ongoing investigation. The bill,
                                                                     as proposed, therefore does not properly safeguard
B. Significant Comments                                              sensitive information and balance the interests of
                                                                     individual citizens and law enforcement agencies.
The OIG provided significant comments on the following
legislation, regulations, orders, and directives:               ..   S. 1529, the Financial Management Refonn Act of
                                                                     1987. We fully endorsed the objectives of this bill,
  ..   S. 908, the Inspector General Act Amendments of               while taking no position on the location of the Chief
       1987. We strongly supported most of the changes               Financial Officer (CFO) in either OMB or Treasury.
       proposed in this bill, especially the addition of oath        We recommended, however, that the bill require a
       administration authority, uniform rates of pay for            quality control review staff to ascertain the degree of
       Inspectors General, and the creation of four more             agency compliance with promulgated financial poli-
       statutory Inspectors General. We supported those              cies and procedures. We also expressed concem with
       provisions ensuring uniformity and reliability of             the requirement that estimated savings resulting
       Inspector General reports, while expressing con-              from financial reforms under the Act be withheld un-
       cern about the provision that applies most of the             til the Inspector General certifies that the savings
       authorities and responsibilities of statutory In-             have occurred. This would seem to inappropriately
       spectors General to small internal audit units.               place agency operating responsibility within an In-
                                                                     spector General's office. Finally, we suggested clari-
  •    H. R. 2378, the Federal Procurement Liability Re-
                                                                     fication on whether the Inspectors General should be
       form Act of 1987. We opposed enactment of this bill           the "independent auditors" or directly contract for or
       as drafted, since it would require indemnification            control auditors performing financial statement re-
       of certain contractors by the Government under                views, and whether or not the bill requires the annual
       specified circumstances. We expressed serious                 preparation and audit of financial statements.
       concerns regarding the broad scope of the indem-
       nification requirement and the resulting potential       ..   H. R. 3142, the Financial Management Improve-
       liability on the part of the Government, the lack of          ment and Public Accountability Act. We supported
       any forecasts regarding such liability, and the lack          the concept of establishing a Chief Financial Offi-
       of any analysis as to the actual need for this legis-         cer (CFO), but expressed our preference for S. 1529
       lation. We also made technical comments on those              since it describes the functions of the CFO in more
       provisions setting forth required amounts of insur-           specific terms. We suggested that a provision of
       ance and exempting certain types of acts and omis-            this bill requiring the agency CFO to produce con-
       sions from the indemnification requirement.                   solidated financial statements be incorporated into
                                                                     S.1529.
  ..   H. R. 2872, Commercial Activities Contracting
       Act. We generally supported the concept of redi-         ..   H. R. 1807, a bill to amend the Small Business Act
       recting OMB Circular A -7 6 cost and manpower                 to reform the Capital Ownership Development
       savings toward Federal deficit reductions while op-           Program. We objected to the provisions of this bill
       posing the requirement to return directly to the              which would require the Inspector General of the


                                                                                                                               2
         Small Business Administration to provide any in-      •   Whistleblowers' Protection Proposal. We supported
         formation requested by the cognizant Congres-             this compromise proposal to H. R. 25 and S. 508,
         sional committees, regardless of the sensitivity of       noting that it favors the whistleblower by lowering
         the information, in connection with ongoing inves-        the standards of knowledge for pursuing corrective
         tigations and audits and, under certain circum-           action, enlarging the definition of "prohibited
         stances, to conduct an investigation when directed        practices," requiring a less rigorous showing
         by the House or Senate Small Business Commit-             by the Office of Special Counsel (OSC) or employee
         tees. We expressed serious reservations about these       to make a prima facie case, and giving the employee
         provisions, pointing out both constitutional con-         an individual right of action when he/she has
         cerns and practical suggestions.                          first sought action from the Osc. We believe that
                                                                   the compromise enhances the authority of the
     •   H. R. 2898, the Fraud Victims' Restitution Act of
                                                                   OSC while continuing to protect agency manage-
         1987. We fully supported enactment of this bill,          ment from false allegations of reprisals. Fi-
         which would impose civil and criminal forfeitures         nally, we believe that this compromise approach
         of proceeds from the offense for mail and wire            would not negatively affect the relationships
         fraud and compensate the victims of such crimes.          among the Inspectors General, OSC, the Merit Sys-
     •   H. R. 2665, a bill to establish a Panama Canal Re-        tems Protection Board, agency management, and
         volving Fund. We questioned the provision which           whistleblowers.
         gives the Panama Canal Commission independent
                                                               •   Proposed Federal Acquisition Regulation Revi-
         leasing and related contracting authority We op-          sions for Debarment and Suspension. We fully sup-
         posed the provision establishing a statutory excep-       ported the proposed revisions, particularly the new
         tion to GSA's regular authorities regarding public        Government-wide requirements for certification of
         buildings owned or leased by the Federal Govern-          eligibility by prime contractors and most subcon-
         ment as specified in the Federal Property and Ad-         tractors. We commented that the certification re-
         ministrative Services Act of 1949.                        quirement has worked well at GSA.
     •   Draft Executive Order No. 14, Performance of Com-
         mercial Activities. We supported the objectives of    •   IRM P 2100, Draft Handbook on Automated Infor-
         the draft Executive Order, but expressed concern          mation Systems Security We proposed that this
         that the provisions of Section l(a) may have unin-        Handbook include detailed, security-oriented
         tended, uneconomical results. This section ap-            checklists to assist GSA managers in evaluating
         pears to establish a cost comparison standard -           the vulnerability of their automated information
         that private industry costs be "clearly unreasona-        systems and in identifying types of controls that
         ble" - that would make standard cost accounting           may be warranted.
         comparisons, such as those performed under estab-
         lished OMB Circular A-76 procedures, largely          •   New PBS Design and Review Policy and Procedures
         meaningless. We believe, even when it is clearly          for the Nationwide Design and Construction Pro-
         demonstrated that performing a particular activity        gram. We questioned the lack of client agency partic-
         in-house is more economical and efficient, it still       ipation in the design and construction process, and
         might be impossible to say that private industry          the lack of an express requirement that outside Con-
         costs were "clearly unreasonable:' We commented           struction Quality Management services be utilized
         that this provision could adversely effect both the       only in those cases where it is cost effective or where
         operations of this agency and of the Government as        GSA in-house resources are not available. We rec-
         a whole.                                                  ommended slight procedural modifications.




26
SECTION VIII-OTHER OIG ACTIVITIES

In addition to detecting problems in GSA operations, the        •   To draw upon our investigators' considerable exper-
OIG is responsible for initiating actions to prevent fraud,         tise in areas that are particularly vulnerable to
waste, and abuse and to promote economy and efficiency.             waste, fraud, and abuse, the OIG instituted a for-
This section details: the OIG program responding to                 mal investigative planning process. This process
these legislated prevention responsibilities, and OIG in-           will culminate next period in an investigative plan
volvement in projects sponsored by the President's                  that will clearly direct investigative priorities and
Council on Integrity and Efficiency (PCIE).                         proactive investigative efforts to the programmatic
                                                                    and functional areas deemed highly vulnerable.

A. OIG Prevention Program
                                                              2. Anticipation
The OIG prevention program is comprised of four ele-
ments that simultaneously focus on minimizing oppor-          OIG anticipation activities this period focused on pre-
tunities for fraud, waste, and abuse and promoting            award audits (Sections II through V), review of proposed
awareness among GSA employees. This four-pronged ap-          legislation and regulations (Section VII), and continued
proach consists of:                                           preaward coverage of GSA's leasing program. These ac-
                                                              tivities stem from the belief that many of tomorrow's
  •   Defining areas vulnerable to fraud, waste, and          problems can be avoided through decisive action today.
      abuse and assessing the degree of vulnerability.
                                                              The OIG's program for reviewing leases prior to award
  •   Anticipating potential problem areas and perform-       provides front-end assurance that GSA is adhering to reg-
      ing front-end reviews to help ensure that programs      ulations and procedures before awarding selected leases
      will operate within applicable laws, policies, and      involving annual rentals in excess of $200,000. The re-
      procedures.                                             views, although advisory in nature, limit opportunities
  •   Educating GSA employees on the manifestations of        for fraud, waste, and abuse in the leasing area.
      fraud and the mechanisms for reporting suspicions       The program achieved the following results during the
      or allegations to the OIG.                              reporting period:
  •   Communicating the OIG presence and establish-
      ing mechanisms that promote a dialogue between             Lease proposals submitted for review ................         90
      GSA employees and the OIG.                                 Lease proposals reviewed...................................   25
                                                                 Lease proposals with deficiencies ......................      16
                                                                 Lease proposals with no deficiencies.................          9
1. Definition                                                 Major deficiencies identified through OIG preaward ad-
                                                              visory reviews related to: nonconformance with Federal
The OIG considers the identification of vulnerable areas      Acquisition Regulation requirements; the need to cor-
to be a major prerequisite to the prevention of fraud,        rect environmental deficiencies; incomplete evaluation
waste, and abuse. To improve OIG capabilities in this         of alternative offers; and inadequate documentation sub-
area, we undertook several initiatives during the report-     stantiating an offeror's ability to meet occupancy re-
ing period:                                                   quirements. Other deficiencies included: unincorporated
                                                              energy conservation specifications; an inaccurate ap-
  •   Convinced that financial auditing is an excellent       praisal report; and negotiations failing to address real es-
      vehicle for pinpointing program vulnerabilities, we     tate tax reductions.
      expended considerable resources reviewing agency
      accounting functions. We evaluated a wide range of
      issues, including: adherence to the Prompt Pay-
      ment Act requirements, controls over manual pay-
      ments, validation methods for recurring utility         3. Education
      payments, administration of non-Federal accounts
      receivable, and reconciliation methods for ensur-       Integrity Awareness Briefings comprise the OIG's pri-
      ing the accuracy of recurring fund status reports.      mary vehicle for educating employees on the manifesta-
                                                              tions of fraud and abuse. These briefings explain the
  •   We also initiated, in conjunction with the General      statutory mission of the OIG and the functions executed
      Accounting Office, a major review of GSA's              by each of our component offices. In addition, through
      FY 1987 consolidated financial statements. Fur-         case studies and slides, the briefings expose GSA employ-
      ther, and most significantly, we made a commit-         ees to actual instances of white collar crime in GSA and
      ment to the GSA Administrator and the General           other Federal agencies.
      Accounting Office that the Ole will take lead re-
      sponsibility for assuring that such financial state-    The OIG conducts two types of Integrity Awareness
      ment audits are henceforth performed on an annual       briefings: general awareness briefings that are geared par-
      basis in GSA.                                           ticularly to new GSA employees, and program-specific
     briefings that are targeted to employees working in spe-      The GSA OIG assisted in the development of two ques-
     cific GSA programs. This period, the OIG completed pro-       tionnaires. The first, directed to supervisors, focused on
     gram-specific briefings for employees of GSA's buildings      the specific performance levels expected of GS-5, 7, and 9
     management and quality assurance programs.                    auditors and the background necessary to perform at
                                                                   these levels. The second, targeted at auditors, solicited
     Since the inception of this program in 1981, 10,686 GSA       information on the backgrounds possessed by incum-
     employees have attended Integrity Awareness Briefings.        bents and the nature of the work they are currently
     This total includes the 1,196 Central Office and regional     performing.
     employees attending 57 briefings this period.
                                                                   The questionnaires were returned by the supervisors and
                                                                   auditors in July and are now being analyzed. After anal-
                                                                   ysis, the findings will be summarized in a report, sched-
     4. Communication                                              uled for issuance in December 1987, that will identify
                                                                   recommended improvements to OPM's examination
     A free flow of information between GSA employees and          process.
     the OIG is a vital prevention and detection element. Re-
     cognizing this fact, the OIG issues brochures on the Hot-
     line and its Report to the Congress, and displays Hotline
     posters in all GSA buildings nationwide. This period, we      2. Review of the Characteristics of
     also developed and issued an OIG informational brochure          Successful Procurement and Financial
     to communicate the ~iG's mission and responsibilities
     to GSA managers and employees, and to serve as a re-             Investigations
     crui tment tool.
                                                                   The GSA OIG is a participating member in this PCIE
     During the reporting period, we received 292 Hotline          Task Force. The project was initiated to identify and ana-
     calls and letters. Of these, 72 complaints warranted fur-     lyze the characteristics of successful investigations.
     ther action. We also received 11 referrals from GAO and
     13 referrals from other agencies; all 24 of these referrals   The Task Force distributed questionnaires to 18 agencies,
     required further action. The remaining 220 Hotline com-       focusing on 459 investigative cases appearing in Reports
     plaints required no further action and were closed.           to the Congress for FYs 1985 and 1986. The question-
                                                                   naires have been completed and survey results tabulated.
                                                                   After analysis, the findings will be summarized in a re-
                                                                   port, scheduled for issuance in the first quarter of
     B. Projects Sponsored By The                                  FY 1988.

          PCIE
                                                                   3. Review of Implementation of the
     The OIG continued to participate in interagency projects
     sponsored by the PCIE. Specific involvement this period          Prompt Payment Act
     is delineated by project in the paragraphs that follow In
     addition to these efforts, OIG staff members also pro-        The GSA OIG is participating in this PCIE review aimed
     vided ongoing support to several PCIE committees.             at assessing:
                                                                     •   The adequacy of internal controls to ensure timely
                                                                         payment of bills.
     1. Auditor Job Analysis Project                                 •   Whether interest penalties are accurately calcu-
                                                                         lated and paid.
     The GSA OIG is participating, in conjunction with other
                                                                     •   Whether discounts are taken only when payments
     Federal agencies, in this evaluation of the auditors re-            are made within the discount period.
     ferred by the Office of Personnel Management (OPM) for
     entry level positions. The review will evaluate whether       The effort will culminate in individual agency reports,
     methods for screening applicants for placement on OPM         scheduled for issuance in the first quarter of FY 1988, fol-
     registers require change.                                     lowed by a consolidated report.




28
APPENDICES
     APPENDIX I-AUDIT REPORT REGISTER

     Assignment                                                                                                Date of
     Number       Title                                                                                        Report



     PBS          Contract Audits
     A70214       Preaward Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-            04/02/87
                  06600
     A70215       Preaward Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-            04/02/87
                  82252
     A70353       Report on Evaluation of Initial Price Proposal Submitted by: Aceves Construction and         04/02/87
                  Maintenance Company, Contract No. GS-llP-86-MKC-7269 (Neg)
     A70238       Preaward Audit of Lease Escalation Proposal: Trizec Properties, Inc., Lease No. GS-09B-      04/03/87
                  76206
     A70299       Preaward Audit of Cost or Pricing Data: Platt Construction, Inc., Solicitation No. GS-05P-   04/03/87
                  87-GBC-0049-SBA
     A70226       Preaward Audit of LeaSt Escalation Proposal: Donohoe Building, Lease No. GS-03B-70005        04/07/87
     A70319       Preaward Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-            04113187
                  06600
     A701n        Preaward Audit of Architect and Engineering Services Contract: The Mathes Group,             04/14/87
                  Warren G. Moses and Company, Inc., Fromherz Engineers, Inc., A Joint Venture,
                  Solicitation No. GS-07P-86-HUC-0l20
     A70296       Preaward Audit of Architect and Engineering Services Contract: Rolf Jensen and               04114187
                  Associates, Inc., Subcontractor to Harry Weese and Associates, Solicitation No. GS-05-P-
                  86-G-BC-0l03
     A70298       Preaward Audit of Architect and Engineering Services Contract: Gamze Korobkin                04/20/87
                  Caloger; Inc., Subcontractor to Harry Weese and Associates, Solicitation No. GS-05-P-86-
                  G-BC-0l03
     A700n        Preaward Audit of Change Order Proposal: Halifax Engineering, Inc., Contract No. GS-         04/21/87
                  llC-30029
     A70223       Preaward Audit of a Claim for Increased Costs: Rentenbach Engineering Company,               04/21/87
                  Contract No. GS-04P-86-EX-C-00ll
     A70338       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Breckco               04/22/87
                  Construction Company, Inc., Wichita, Kansas, Solicitation No. RKSnOlO
     A70283       Preaward Audit of Cost or Pricing Proposal: Haston Construction Company, Inc.,               04/23187
                  Solicitation No. GS-04P-87-EX-C0024
     A70360       Audit of Cost Reimbursable Contract: Hubert N. Hoffman, Lease No. GS-03B-5960                04/23/87
     A70235       Preaward Audit of Architect and Engineering Services Contract: S.E.A. Consultants, Inc.,     04/29/87
                  Solicitation No. 02-PPC-CM-087-0502
     A70285       Preaward Audit of Supplemental Architect and Engineering Services Contract:                  04/29/87
                  Architectural Resources Group, Project No. ZCA86140
     A70328       Preaward Audit of Lease Escalation Proposal: Paramount Group, Agent for One Wilshire         04/29/87
                  Associates, Lease No. GS-09B-76541
     A60596       Preaward Audit of a Claim for Increased Costs: Spencer, White & Prentis, Inc., Second        04/30/87
                  Tier Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
     A70407       Preaward Audit of Small Business Administration 8(a) Pricing Proposal: World Wide            04/30/87
                  Terminal Service Corp. (S.L.), St. Ann, Missouri, Solicitation No. 6PPB870017
     A60349       Preaward Audit of Lease Escalation Proposal: WestemStratos Corporation, 1375 Sutter          05/07/87
                  Street, Lease No. GS-09B-77310
30
A70315   Preaward Audit of Architect and Engineering Services Contract: Lee and Batheja, Inc.,      05/11/87
         Omaha, Nebraska, Solicitation No. ZNE71200
A70297   Audit Report on Evaluation of Price Proposal in Response to GSA Contract No. GS-05-P-      05/19/87
         86-G-BC-0l03 Submitted by: Harry Weese and Associates, Chicago, Illinois
A70364   Preaward Audit of Cost or Pricing Proposal: Spruill Realty/Construction Company,           05/19/87
         Solicitation No. GS-04P-EX-C-00028
A70206   Preaward Audit of Architect and Engineering Services Contract: Albert S. Komatsu &         OS/20/87
         Associates, Inc., Contract No. GS-07P-86-HUC-0l23
A70370   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: The Brooke          OS/20/87
         Company, Davenport, Iowa, Solicitation No. RIA72310
A70207   Preaward Audit of a Claim for Increased Costs: TMS, Inc., Contract No. GS-07B-31531        OS/21/87
A70273   Preaward Audit of Architect and Engineering Services Contract: Richter, Combrooks,         OS/26/87
         Gribble, Inc., Project No. ZMD-00240
A70389   Preaward Audit of Architect/Engineering Services Contract: Urbahn Associates, Inc.,        OS/26/87
         Solicitation No. 02-PPC-CM-086-0506
A70458   Preaward Audit of Lease Escalation Proposal: Jensen and Jensen, Lease No. GS-lOB-04424     OS/28/87
A70392   Preaward Audit of Architect/Engineering Services Contract: WMFL, P.S., Project RID         OS/29/87
         87200
A70399   Preaward Audit of Architect/Engineering Services Contract: MW Consulting                   OS/29/87
         Engineering, Project No. RID 87200
A70362   Preaward Audit of Lease Escalation Proposal: HK. Enterprises, Inc., Lease No. GS-04B-      06/03/87
         15282
A70381   Preaward Audit of Cost or Pricing Data: UBM Inc., Solicitation No. GS-05P-87-GBC-          06/03/87
         0055-SBA
A70391   Audit of Termination Proposal: Allied Security Forces, Inc., Contract No. GS-04P-86-       06/04/87
         EWC-0262(Neg)
A70147   Preaward Audit of Architect and Engineering Services Contract: 1. M. Pei & Partners,       06/05/87
         Project No. NMA85670
A70318   Preaward Audit of Cost or Pricing Data: C.W Swenson, Inc., Solicitation No. RCA 68126      06/05/87
A70410   Preaward Audit of Change Order Proposal: Rand and Son Construction Company, Kansas         06/08/87
         City, Missouri, Contract No. GS-06P-86-GYC-0083
A70433   Preaward Audit of Architect and Engineering Services Contract: Eidam and Associates,       06/10/87
         Project No. RID64040
A70434   Preaward Audit of Architect and Engineering Services Contract: Lombard-Conrad              06/10/87
         Architects, P.A., Project No. RID64040
A70354   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Cutwright           06/11/87
         Construction! Co., Inc., Des Moines, Iowa, Solicitation No. RIA 72080
A70339   Preaward Audit of Operating Costs: CECOM Building, Stanwick Management Group,              06/12/87
         Lease No. GS-02B-lSS26
A70388   Preaward Audit of Supplemental Architect/Engineering Services Contract: Jansen &           06/12/87
         Rogan, Consulting Engineers, P.c., Solicitation No. 02-PPC-CM-087-0503
A70406   Preaward Audit of Architect and Engineering Services Contract: Short and Ford              06/17/87
         Architects, Contract No. GS-llP-87-MKD-9006
A70335   Preaward Audit of Architectural and Engineering Design Services Contract: Mathews,         06/19/87
         Kessler & Associates, Inc., Project No. ZAZ86210
A70291   Preaward Audit of Change Order Proposal: Dawson Construction Company, Inc., Contract       06/23/87
         No. GS-04P-86-EX-C0026
A70390   Preaward Audit of. Small Business Administration 8(a) Pricing Proposal: Watkins Security   06/24/87
         Agency, Inc., Solicitation No. GS-003-87-00R-00l3
A70441   Preaward Audit of Architect and Engineering Services Contract: JonesMayer, Inc., St.       06/25/87
         Louis, Missouri, Solicitation No. ZM071220
                                                                                                               31
     A70545     Preaward Audit of Lease Escalation Proposal: W & M Properties, Inc., Solicitation No. GS-   06125/87
                04B-22292
     A70438     Preaward Audit of Supplemental Architect and Engineering Services Contract: FRE,            07/02/87
                Solicitation No. 02-PPC-CM-087-000l
     A70432     Preaward Audit of Architect and Engineering Services Contract: Robert Couch                 07109/87
                Associates, Solicitation No. ZDE-0080l
     A70439     Preaward Audit of Supplemental ArchitectlEngineering Services Contract: Midestco            07115187
                Consulting Engineers, Solicitation No. 02-PPC-CM-087-000l
     A70550     Preaward Audit of Lease Escalation Proposal: C & C Investments, Lease No. GS-09B-           07115/87
                82252
     A70396     Preaward Audit of Lease Escalation Proposal: Detroit and Canada Tunnel Corporation,         07116/87
                Lease No. GS-05B-12863
     A60539     Preaward Audit of Change Order Proposal: Aires Electrical Contracting Corp.,                07117/87
                Subcontractor to Terminal Construction Corp., Contract No. GS-02P-23256
     A70032     Preaward Audit of Architectural and Engineering Services Contract: VVKR-Mitchelll           07121187
                Giurgola Architects, Contract No. GS-llB-69030
     A70368     Preaward Audit of Lease Escalation Proposal: The Pilchers Group, Lease No. GS-09B-          07/21187
                75762
     A70561     Preaward Audit of Lease Escalation Proposal: The Pilchers Group, Lease No. GS-09B-          07121187
                75762
     A70401     Preaward Audit of Lease Escalation Proposal: Denver West Office Building No.3 Venture,      07123/87
                Lease No. GS-08B-l0737
     A70402     Preaward Audit of Lease Escalation Proposal: Denver West Office Building No.2 Venture,      07123/87
                Lease No. GS-08B-09787
     A70514     Preaward Audit of Lease Escalation Proposal: Walker, McElliott and Associates, Lease No.    07124/87
                GS-08B-I0728
     A70588     Preaward Audit of Lease Escalation Proposal: Edelbrock Corporation, Lease No. GS-09B-       07124/87
                75129
     A70009     Preaward Audit of a Claim for Increased Costs: VA.L. Floors, Inc., Subcontractor to         07127/87
                Terminal Construction Corp., Contract No. GS-02P-23256
     A70554     Preaward Audit of Lease Escalation Proposal: Paramount Group, Inc., Lease No. GS-09B-       07127/87
                76541
     A70555     Preaward Audit of Lease Escalation Proposal: Paramount Group, Inc., Lease No. GS-09B-       07127/87
                76541
     A70541     Preaward Audit of Architect and Engineering Services Contract: Gipe Associates, Inc.,       07/31187
                Solicitation No. ZDE-70032
     A 7043 I   Preaward Audit of a Claim for Increased Costs: Contract Cleaning Maintenance, Inc.,         08/03/87
                Contract No. GS-05BR-41770
     A70549     Preaward Audit of ArchitectlEngineering Services Contract: Rogers, Burgun, Shahine and      08/lllS7
                Deschler, Inc., Architects, Solicitation No. GS-00P-87BQ-0096-MJ07
     A70540     Preaward Audit of Architect and Engineering Services Contract: Smith and Faass              OSI12/87
                Consulting Engineers, Inc., Solicitation No. ZDE-70025
     A7055 1    Preaward Audit of Lease Escalation Proposal: South Coast Air Quality Management             OSI1S/87
                District, Lease No. GS-09B-82247
     A70542     Preaward Audit of Lease Escalation Proposal: Detroit Associates Limited Partnership,        OS120/87
                Lease No. GS-OSBR-9585
     A70567     Preaward Audit of Lease Escalation Proposal: Cohen Asset Management, Inc., Kansas           OS125/87
                City, Missouri, Lease No. GS-06B-14268
     A70630     Preaward Audit of Architect and Engineering Services Contract: Werden & Associates,         0812S/87
                Inc., Solicitation No. ZDE-70026

32
A70581   Preaward Audit of Architect and Engineering Services Contract: Luckett and Farley          08/26/87
         Architects, Engineers and Construction Managers, Inc., Solicitation No. GS-04F-87-00019
A70594   Preaward Audit of Cost or Pricing Data: Radan Systems, Incorporated, Contract No. GS-      08/26/87
         00P-BQC-0103
A70655   Preaward Audit of Architect and Engineering Services Contract: Barge, Waggoner, Sumner     08/26/87
         and Cannon
A70336   Preaward Audit of Change Order Proposal: Tower Construction Compan); Contract No.          08/27/87
         GS-ll-P-8601
A70650   Preaward Audit of Lease Escalation Proposal: Cohen Asset Management, Inc., Kansas          08/27/87
         Cit); Missouri, Lease No. GS-06B-14268
A70446   Preaward Audit of Change Order Proposal: George A. Fuller Compan); Contract No. GS-        08/28/87
         02P-23364
A70576   Preaward Audit of Cost or Pricing Data for Temporary Border Station: Eastport              08/28/87
         Development Corp., Inc., Lease No. ID05365
A70580   Preaward Audit of Architect and Engineering Services Contract: Wolfberg, Alvarez and       08/28/87
         Associates, Contract No. GS-04P-87-EX-D0020
A70623   Preaward Audit of Change Order Proposal: E.W Johnson, Inc., Wichita, Kansas, Contract      08/28/87
         No. GS-006P-86-GYC-0068
A70591   Preaward Audit of Small Business Administration 8(a) Pricing Proposal: Southwestern        09/02/87
         Security Service, Inc., Solicitation No. GS-07-P-87-HT-C-01l6
A70609   Preaward Audit of Change Order Proposal: Aires Electrical Contracting Corp.,               09/04/87
         Subcontractor to Tenninal Construction Corp., Contract No. GS-02P-23256
A70639   Preaward Audit of Architect and Engineering Services Contract: Zando, Martin &             09/09/87
         Milstead, Inc., Solicitation No. P.C.N. ZDE-00801
A70575   Preaward Audit of Architect and Engineering Services Contract: GNM & Associates, Inc.,     09/11/87
         Contract No. GS-llB-79011
A70638   Preaward Audit of Architect and Engineering Services Contract: Silling Associates, Inc.,   09/11/87
         Solicitation No. ZDE-00801
A70508   Preaward Audit of Change Order Proposal: Tower Construction Compan); Contract No.          09/23/87
         GS-ll-P-8601
A70509   Preaward Audit of Change Order Proposal: Tower Construction Compan); Contract No.          09/23/87
         GS-ll-P-8601
A70656   Preaward Evaluation of Pricing Proposal: Cobarc Services, Inc., Tacoma, Washington,        09/24/87
         Solicitation No. 87-KS-I051
A70652   Preaward Audit of Architect and Engineering Services Contract: Colton/Lester               09/25/87
         Corporation, Chesterfield, Missouri, Solicitation No. ZM071220
A70653   Preaward Audit of Architect and Engineering Services Contract: The Christner               09/25/87
         Partnership, Inc., St. Louis, Missouri, Solicitation No. ZM071220
A70518   Preaward Audit of a Claim for Increased Costs: J. Slotnik Compan); Contract No. GS-OlB-    09/29/87
         01962



PBS      Internal Audits
A70295   Preaward Lease Review: Lease No. GS-07B-13102, Southpark, Building G, 1821 Direc-          04/02/87
         tors Boulevard, Austin, Texas
A60547   Review of Adequacy of Regional Review of AE Drawings and Specifications, Region 5          04/08/87
A60571   Review of Buildings Management Field Office, Columbus, Ohio, Region 5                      04/08/87
A60l77   Review of the Regional Management of Field Offices, Region 9                               04117/87
A60469   Review of Lease No. GS-04B-22165, Wilmington, North Carolina                               04/20/87

                                                                                                               33
     A70293   Preaward Lease Review: Chester Arthur Building, 425 Eye Street, N.W, Washington,          04/24/87
              DC, Lease No. GS-11B-60259
     A70405   Preaward Lease Review: Social Security AdministrationlInternal Revenue Service 331-       04/27/87
              333 N. Halsted Street, Chicago Heights, Illinois, Lease No. GS-05B-14445
     A70146   Review of Construction Contract Payrolls in Region 4                                      04/29/87
     A70412   Preaward Lease Review: Gateway Towers, 200 Washington Avenue, Towson, Maryland,           04/29/87
              Lease No. GS-03B-79030
     A70424   Preaward Lease Review: 211 Main Street, San Francisco, California, Lease No. GS-09B-      04/30/87
              06600
     A70420   Preaward Lease Review: 30,000 Square Feet of 1250 Poydras Building, 1250 Poydras          05/05/87
              Street, New Orleans, Louisiana, Lease No. GS-07B-13130
     A70428   Preaward Lease Review: 1850 Craigshire Drive, St. Louis, Missouri, Lease No. GS-06P-      05/14/87
              78631
     A70456   Preaward Lease Review: First and Stewart Building, Seattle, Washington, Lease No. GS-     05/14/87
              10B-05358
     A60620   Review of Taxes and Surcharges Paid on Utility Bills, Region 9                            OS/26/87
     A70449   Preaward Lease Review: Wyoming Valley Veterans Building, 19-27 North Main Street,         OS/27/87
              Wilkes-Barre, PA, Lease No. GS-03B-79009
     A70463   Preaward Lease Review: Fairchild Building, 499 S. Capitol Street, S.W, Washington,        06/01/87
              DC, Lease No. GS-llB-50025
     A70490   Preaward Lease Review: Allendale Square, King of Prussia, PA, Lease No. GS-03B-           06/15/87
              79014
     A70526   Preaward Lease Review: Lease Extension, Federal Aviation Administration, 2300 E.          06/22/87
              Devon Avenue, Des Plaines, Illinois, Lease No. GS-05B-10740
     A70242   Review of an Allegation Concerning Removal of Ceiling Tiles Containing Asbestos at        06/30/87
              the Washington Navy Yard
     A70256   Report on the Count of Contractor and Subcontractor Employees Working at the Ja-          07/06/87
              maica Federal Office Building, Contract No. GS-02P-23256
     A70027   Review of Elevators in GS Building, 18 & F Streets, N.W, Washington, DC                   07/09/87
     A70311   Postaward Lease Review: GS-04B-26278, One North University Drive, Ft. Lauderdale,         07/13/87
              Florida
     A70584   Preaward Lease Review: Lease No. GS-OIB(PEL)-03553 NEG., 90 Canal St., Boston,            07/16/87
              MA
     A70464   Limited Review of Concerns About Language Contained in Solicitation No. GS-llP-           07/20/87
              87-MJ-D0030, Indefinite Quantity (Term) Contract for Industrial Hygienist Services in
              the National Capital Region
     A60139   Review of Selected Repair and Alteration Contracts, Region 4                              07/21/87
     A70256   Review of the Wiring Being Installed in the Federal Office Building in Jamaica, Queens,   07/22/87
              NY, Contract No. GS-02P-23256
     A70610   Preaward Lease Review: Lease No. GS-OlB(PEL)-03:;60 NEG., 94-104 Glenn Street,            07/22/87
              Lawrence, MA
     A70011   Review of the Buildings Management Field Office, 26 Federal Plaza, New York               07/29/87
     A70604   Preaward Lease Review: Boyers Mine, Boyers, PA, Lease No. GS-03B-79039                    07/30/87
     A60256   Review of Construction and Administration of the Portland East Federal Building, Port-    07/31/87
              land, Oregon
     A70489   Preaward Lease Review: Temporary Border Station, Eastport, Idaho                          07/31/87
     A60546   Review of Selected Repair and Alteration Contracts in Region :;                           08/07/87
     A70517   Review of Alleged Procurement Improprieties, Fargo, North Dakota                          08/07/87
     A70287   Review of the Norfolk Field Office, Norfolk, VA                                           08/12/87
34
A70617   Preaward Lease Review: Gwynn Oak Building, Woodlawn, Maryland, Lease No. GS-           08114/87
         03B-79035
A70256   Review of Defects and Omissions at the Jamaica, Queens Federal Office Building, Con-   08124/87
         tract No. GS-02P-23256
A70572   Letter Report on Proposed Location of STRIDE Computer Operations in Region 9           08124/87
A70326   Interim Audit Report-Building Purchase Program, Purchase of the IRSIVA Complex,        08125/87
         Austin, Texas
A70657   Preaward Lease Review: Columbia Pike Office Building, 5600 Columbia Pike, Falls        09/08/87
         Church, Virginia, Lease No. GS-llB-60147
A70695   Preaward Lease Review: 360 22nd Street, Oakland, California, Lease No. GS-09B-         09109/87
         86844
A70714   Preaward Lease Review: 6130 and 6120 Executive Boulevard, Rockville, Maryland,         09117187
         Lease No. GS-llB-70l58
A70706   Preaward Lease Review, Lease No. GS-OlB(PEL)-03566Neg., One Montvale Avenue,           09123/87
         Stoneham, MA
A70728   Preaward Lease Review: Decatur & Oakey Blvds., Las Vegas, Nevada, Lease No. GS-        09124/87
         09B-87117
A70287   Review of the Buildings Management Field Office, Wilkes-Barre, PA                      09125/87
A70600   Advisory Review of Proposed Lease Award, 5812 Bannister Road, Kansas City, Mis-        09/25/87
         souri, Lease No. GS-06P-78645
A70694   Preaward Lease Review: Lease No. GS-02B-22312 Journal Square Office Building, Build-   09125/87
         ing # I, Jersey City, NJ
A707l1   Preaward Lease Review: GS-04B-28085 j Proposed GSA/FSS Warehouse, Henry County,        09125/87
         Georgia



FSS      Contract Audits
A70241   Preaward Audit of Multiple Award Schedule Contract: Lifesaving Systems Corporation,    04/01187
         Solicitation No. 7PM-531245/Z3/7FX
A70309   Preaward Audit of a Claim for Increased Costs: Chrysler Corporation, Contract No.      04/01/87
         GS-00F-81224
A70083   Preaward Audit of Multiple Award Schedule Contract: Finnigan Corporation, Solici-      04/02/87
         tation No. FCGS-Z2-400l0-N-IO-16-86
A70210   Preaward Audit of Multiple Award Schedule Contract: AirKem Professional Products,      04/03/87
         Solicitation No. 10PN-SKS-6051
A70258   Preaward Audit of Multiple Award Schedule Contract: Hy-Test Safety Shoes, St. Louis,   04/03/87
         Missouri, Solicitation No. 7PM-53245/Z3/7FX
A70373   Preaward Audit of Multiple Award Schedule Contract: A.B. Dick Company, Proposed        04/03/87
         Modification to Contract No. GS-00F-850l3
A70259   Preaward Audit of Multiple Award Schedule Contract: Angelica Uniform Group, St.        04/07/87
         Louis, Missouri, Solicitation No. 7PM-53245/Z3/7FX
A70209   Preaward Audit of Multiple Award Schedule Contract: Surgikos, Inc., Solicitation No.   04113/87
         lOPN -SKS-6051
A70264   Postaward Audit of Multiple Award Schedule Contract: Gould, Incorporated, Imaging      04116/87
         and Graphics Division, Contract No. GS-00F-78072 for the Period November 11, 1984
         to September 30, 1987
A70253   Preaward Audit of Multiple Award Schedule Contract: Knapp Shoes, Inc., Solicitation    04117/87
         No. 7PM-53245/Z3/7FX
                                                                      ~

A70138   Preaward Audit of Multiple Award Schedule Contract: FMC Corporation, Solicitation      04121/87
         No. 7PM-53003/F5/7FX
                                                                                                           35
     A70312    Preaward Audit of Multiple Award Schedule Contract: Pitney Bowes, Inc., Solicitation     04/21/87
               No. FCGE-A7-75402-N-2-3-87
     A70272    Preaward Audit of Multiple Award Schedule Contract: Copygraphics, Solicitation No.       04/22/87
               FCGE-A7-75402-N-12-31-86
     A70211    Preaward Audit of a Claim for Increased Costs: Chrysler Corporation, Contract No.        04/23/87
               GS-00F-73253
     A70342    Preaward Audit of Cost or Pricing Data: Ikselah Corporation, Solicitation No. FCGE-      04/23/87
               A7-75402-N-2-3-87
     A70275    Preaward Audit of Multiple Award Schedule Contract: Multigraphics, A Division of         04/27/87
               AM International, Solicitation No. FCGE-A7-75402-N-2-3-87
     A70380    Preaward Audit of Cost or Pricing Data: CACI Field Services Incorporated, Solicitation   04/28/87
               No. FCGA-S7-XV333-N
     A70307    Preaward Audit of Multiple Award Schedule Contract: E. I. DuPont De Nemours &            04/30/87
               Company, Solicitation No. FCGS-Y5-37003-N-9-25-86
     A60012    Postaward Audit of Multiple Award Schedule Contract: Xerox Corporation, Contract         05/01/87
               No. GS-00F-69830 for the Period October I, 1984 to September 30, 1985
     A70183    Preaward Audit of Multiple Award Schedule Contract: Philips Electronic Instruments,      05/05/87
               Inc., Solicitation No. FCGS-Z2-400l0-N
     A70251    Preaward Audit of Multiple Award Schedule Contract: Harris/3M Document Products,         05/06/87
               Inc., Solicitation No. FCGE-A7-75402-N-2-3-87
     A70266    Preaward Audit of Multiple Award Schedule Contract: Savin Corporation, Solicitation      05/06/87
               No. FCGE-A7-75402-N-2-3-87
     A70262    Preaward Audit of Multiple Award Schedule Contract: Toshiba America, Inc., Solici-       05/07/87
               tation No. FCGE-A7-75402-N-2-3-87
     A70322    Preaward Audit of Multiple Award Schedule Contract: Sharp Electronics Corporation,       05/11/87
               Solicitation No. FCGE-A7-75402-N-2-3-87
     A70352    Preaward Audit of Multiple Award Schedule Contract: Delco Remy, Division of General      05/11/87
               Motors Corporation, Solicitation No. 7PM-53030/A6I7FX
     A70321    Preaward Audit of Multiple Award Schedule Contract: Johnson Controls, Inc., Battery      05/14/87
               Division, Solicitation No. 7PM-53030/A6/7FX
     A70219    Preaward Audit of Multiple Award Schedule Contract: Hewlett-Packard Company, So-         05/19/87
               licitation No. FCGS-Y4-37004-N-12-11-86
     A70281    Preaward Audit of Multiple Award Schedule Contract: Lehigh Safety Shoe Company,          05/19/87
               Solicitation No. 7PM-53245/Z3/7FX
     A7033 1   Audit of Termination Claim: Cascade Pacific International, Contract No. GS-OOS-          05/19/87
               88694
     A70325    Preaward Audit of Multiple Award Schedule Contract: GNB Incorporated, Industrial         OS/26/87
               Battery Division, Solicitation No. 7PM-53030/A6I7FX
     A70289    Preaward Audit of Multiple Award Schedule Contract: John Fluke Manufacturing Co.,        OS/27/87
               Inc., Solicitation No. FCGS-Y4-37004-N-I2-U-86
     A70278    Preaward Audit of Multiple Award Schedule Contract: Minolta Corporation, Solicita-       OS/29/87
               tion No. FCGE-A7-75402-N-2-3-87
     A70282    Preaward Audit of Multiple Award Schedule Contract: Eagle Work Clothes, Solicitation     OS/29/87
               No.7PM-53245/Z3/7FX
     A70274    Preaward Audit of Multiple Award Schedule Contract: Nashua Corporation, Solicita-        06/03/87
               tion No. FCGE-A7-75402-N-2-3-87
     A70052    Postaward Audit of Multiple Award Schedule Contract: Information Marketing Inter-        06/08/87
               national, Contract No. GS-OlF-09204 for the Period December 1, 1984 to July 26, 1986
     A70244    Postaward Audit of Multiple Award Schedule Contract: Information Marketing Inter-        06/08/87
               national, Contract No. GS-00S-41321 for the Period October 1, 1982 to September 30,
               1983
36
A70245    Postaward Audit of Multiple Award Schedule Contract: Information Marketing Inter-          06/08/87
          national, Contract No. GS-00S-41321, for the Period October I, 1983 to November 30,
          1984
A70292    Postaward Audit of Savin Corporation: Contract No. GS-00F-77069                            06/11/87
A70306    Preaward Audit of Multiple Award Schedule Contract: Del Paint Manufacturing Cor-           06/11/87
          poration, Solicitation No. 10PN-ZNS-4063
A70260    Preaward Audit of Multiple Award Schedule Contract: Ozalid Corporation, Vestal, New        06/12/87
          York, Solicitation No. FCGE-A7-75402-N
A70340    Preaward Audit of Multiple Award Schedule Contract: C&D Power Systems, Solicita-           06/16/87
          tion No. 7PM-53030/ A6/7FX
A70104    Postaward Audit of Multiple Award Schedule Contract: Pitney Bowes, Inc., Contract          06/18/87
          No. GS-00F-69850 for the Period October I, 1984 to September 30, 1985
A70252    Preaward Audit of Multiple Award Schedule Contract: Monroe Systems for Business,           06/19/87
          Inc., Solicitation No. FCGE-A7-75402-N
A70300    Preaward Audit of Multiple Award Schedule Contract: Eastman Kodak Company, So-             06/19/87
          licitation No. FCGE-A7-75402-N-2-3-87
A70301    Preaward Audit of Multiple Award Schedule Contract: Konica Business Machines               06/23/87
          U.S.A., Inc., Solicitation No. FCGE-A7-75402-N-2-3-87
A70247    Preaward Audit of Multiple Award Schedule Contract: 3M Company, Audio Visual Di-           06/25/87
          vision, Solicitation No. FCGE-A7-75402-N-2-3-87
A70369    Preaward Audit of Multiple Award Schedule Contract: OCE, Business Systems, Inc.,           06/25/87
          Solicitation No. FCGE-A7-75402-N-2-3-87
A70276    Preaward Audit of Multiple Award Schedule Contract: A.B. Dick Company, Solicitation        06/26/87
          No. FCGE-A7-75402-N-2-3-87
A70417    Preaward Audit of Multiple Award Schedule Contract: S.c. Johnson & Son, Inc., Solic-       06/26/87
          itation No. 10PN-HTS-6149
2C20857   Postaward Audit of Multiple Award Schedule Contract: Continental Water Systems             06/29/87
          Corporation, Contract No. GS-07S-07425
A70169    Postaward Audit of Multiple Award Schedule Contract: Andrew Corporation, Grand-            06/30/87
          view, Missouri, Contract No. GS-08F-3 743 7
A70423    Preaward Audit of Multiple Award Schedule Contract: Premier Chemicals, Inc., Solic-        07/02/87
          itation No. 10PN-HTS-6I49
A70415    Preaward Audit of Multiple Award Schedule Contract: Hewlett-Packard Company, So-           07/14/87
          licitation No. FCGS-Y1-37006-N-3-4-87
A70520    Preaward Audit of Multiple Award Schedule Contract: DeLong Sportswear Inc., Gri-           07/16/87
          nell, Iowa, Solicitation No. 7PM-53216/W3/7FX
A70538    Audit of Refund on Open Market Purchases: Xerox Corporation                                07/23/87
A70558    Preaward Evaluation of Price Proposal: EyeDentify, Inc., Beaverton, Oregon, Solicitation   07/23/87
          No.7PM-53024/R5/7FX
A70265    Preaward Audit of Multiple Award Schedule Contract: Dranetz Technologies, Inc., So-        07/27/87
          licitation No. FCGS-Y4-37004-N-12-11-86
A70240    Preaward Audit of Multiple Award Schedule Contract: Xerox Corporation, Solicitation        07/29/87
          No. FCGE-A7-75402-N-2-3-87
A70536    Preaward Audit of Multiple Award Schedule Contract: Alerting Communicators of              07/29/87
          America, Solicitation No. 7PM-53024/R5I7FX
A70544    Preaward Audit of Multiple Award Schedule Contract: Sam Wyche Sports World, Inc.,          07/29/87
          Solicitation No. 7PM-53216/W3I7FX
A70563    Preaward Audit of Multiple Award Schedule Contract: Badger Division, Telecommun-           07/30/87
          ications Technology, Inc., Solicitation No. 7PM-53024/R5/7FX
A70535    Preaward Audit of Multiple Award Schedule Contract: King-Fisher Co., Solicitation          08/14/87
          No. 7PM-53024/R5/7FX
                                                                                                                37
     A70599   Preaward Audit of Cost or Pricing Data Contract: Monaco Enterprises, Inc., Solicita-     08/19/87
              tion No. 7PM-53024/R517FX
     A70596   Preaward Audit of Multiple Award Schedule Contract: The Glidden Company, Solici-         08/24/87
              tation No. 10PN -ZNS-4063
     A70503   Preaward Audit of Multiple Award Schedule Contract: Champion Products, Inc., Solic-      08/28/87
              itation No. 7PM-53216/W3/7FX
     A70547   Preaward Audit of Multiple Award Schedule Contract: Felco Athletic Wear Co., Inc., So-   08/28/87
              licitation No. 7PM-53216/W3/7FX
     A70534   Preaward Audit of Multiple Award Schedule Contract: Honeywell, Building Services         08/31/87
              Division, Solicitation No. 7PM-53024/R5/7FX
     A70614   Preaward Evaluation of Cost Data: Uniforms Manufacturing, Inc., Solicitation No.         08/31/87
              7PM -53245/Z317FX
     A70502   Preaward Audit of Multiple Award Schedule Contract: Velva Sheen Manufacturing            09/09/87
              Company, Solicitation No. 7PM-53216/W3/7FX
     A70506   Preaward Audit of Multiple Award Schedule Contract: Technicon Instruments Corp.,         09/09/87
              Solicitation No. FCGS-Z6-40009-N
     A70562   Preaward Audit of Multiple Award Schedule Contract: Aritech Corporation, Solicita-       09/11/87
              tion No. 7PM-53024/R5/7FX
     A70569   Preaward Audit of Multiple Award Schedule Contract: Vindicator Corporation, Solici-      09/11/87
              tation No. 7PM-53024/R5I7FX
     A70548   Preaward Audit of Multiple Award Schedule Contract: Empire Sporting Goods, Mfg.          09/17/87
              Co., Inc., Solicitation No. 7PM-53216/W3I7FX
     A70647   Preaward Audit of Cost or Pricing Data: Abacus Controls, Inc., Solicitation No. FCGS-    09/17/87
              Yl-37006-N
     A70333   Preaward Audit of Cost or Pricing Data: Zodiac of North America, Inc., Contract No.      09/21/87
              GS-I0F-47048
     A70499   Preaward Audit of Multiple Award Schedule Contract: SAB Nife, Inc., Solicitation No.     09/22/87
              7PM -53030/ A6/7FX
     A70758   Report on Review of Proposal for Initial Pricing Under RFP No. FCGA-A3-QW423-N-          09/23/87
              7-6-87: Ortho Pharmaceutical Corporation, Raritan, New Jersey


     FSS      Internal Audits
     A70051   Observation of the Physical Inventory at the Franconia Wholesale Distribution Center,    06/05/87
              Franconia, VA
     A60396   Review of Compliance with Training Requirements of the Contracting Officer Warrant       06/25/87
              Program by FSS, Central Office
     A60434   Review of Contractor's Operations of the Franconia Depot                                 07/24/87
     A50089   Review of the Shipbottom Paint Program in GSA                                            08/13/87
     A70578   Review of Unidentified Telephone Toll Charges                                            09/09/87



     IRMS     Contract Audits
     A70033   Preaward Audit of Cost or Pricing Data: Electronic Data Systems Federal Corporation,     04107/87
              Solicitation No. GSC-KECT-A-00008-N-4-10-85
     A60455   Postaward Audit of Multiple Award Schedule Contract: Nixdorf Computer Corpora-           04/14/87
              tion, Contract No. GS-00K-840lS5609 and Modification lA for the Period October I,
              1983 to September 30, 1985
     A70087   Postaward Audit of Multiple Award Schedule Contract: Nixdorf Computer Corpora-           04/14/87
              tion, Contract No. GS-OOK -86AGS5639 for the Period October I, 1985 to September 30,
              1986
38
A70088   Postaward Audit of Multiple Award Schedule Contract: Nixdorf Computer Corpora-         04/14/87
         tion, Contract No. GSC-00C-03346 for the Period October 1, 1982 to September 30,
         1983
A60471   Preaward Audit of Multiple Award Schedule Contract: Martin Marietta Corporation,       04/16/87
         Solicitation No. GSC-KECT-A-00008-N-I0-85
A60430   Postaward Audit of Multiple Award Schedule Contract: Technology Services, Inc., Con-   04/17/87
         tract No. GS-00K-85AGS6059
A70154   Preaward Audit of Multiple Award Schedule Contract: Federal Data Corporation, So-      04/21/87
         licitation No. GSC-KESF-G-00034-N-1l-19-86
A70383   Preaward Audit of Multiple Award Schedule Contract: APTEC Computer Systems,            05/01/87
         Inc., Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70440   Report on Review of Proposal for Change Order Under Contract No. GS-00K-86-            OS/0l/87
         AICOOOI: System Automation Corporation, Silver Spring, Maryland
A70447   Report on Review of Proposal for Initial Pricing Under RFP No. GS-00K-AGS-6100: In-    05/05/87
         ternational Technology Corporation, McLean, Virginia
A70425   Preaward Audit of Multiple Award Schedule Contract: Calcomp Group, Sanders As-         OS/26/87
         sociates, Inc., Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70460   Report on Review of Proposal for Initial Pricing Under GSA RFP No. GSC-OIT-7008:       OS/27/87
         Control Data Corporation, Government Systems Operations, Professional Services Di-
         vision, Minneapolis, Minnesota
A70418   Preaward Audit of Multiple Award Schedule Contract: Information Dimensions, Inc.,      06/05/87
         Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70236   Preaward Audit of Multiple Award Schedule Contract: Timeplex, Inc., Contract No.       06/06/87
         GS-OOK -86AGS5256
A70413   Preaward Audit of Multiple Award Schedule Contract: Tellabs, Inc., Solicitation No.    06/16/87
         GSC-KESV-00043-N-4-13-87
A70394   Preaward Audit of Multiple Award Schedule Contract: Gould, Inc., Computer Systems      06/17/87
         Division, Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70S07   Report on Evaluation of Price Proposal Submitted by: Microlog Corporation, German-     06/17/87
         town, Maryland, Solicitation No. GS-00K-86-AGS-0804
A70511   Contract Audit Closing Statement: Contract No. GS-00K-85ADJ0059 (Task 1), Sub-         06/17/87
         mitted by The Mitre Corporation, Bedford, Massachusetts
A70378   Preaward Audit of Multiple Award Schedule Contract: Modular Computer Systems,          06/18/87
         Inc., Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70419   Preaward Audit of Multiple Award Schedule Contract: Hekimian Laboratories, Inc., So-   06/18/87
         licitation No. GSC-KESV-00043-N-4-16-87
A60402   Postaward Audit of Multiple Award Schedule Contracts: Digital Equipment Corpora-       06/22/87
         tion, Contract Nos. GS-00C-03404, GS-00K-840IS5657, GS-00K-850ISS933, and GS-
         OOK -86AGS5669
A70S46   Preaward Audit of Multiple Award Schedule Contract: Loral Terracom, Solicitation No.   06/26/87
         GSC-KESV -00044-N -4-23-87
A60404   Postaward Audit of Multiple Award Schedule Contracts: Digital Equipment Corpora-       07/01/87
         tion, Contract Nos. GS-00C-03404, GS-00K-840IS5657, GS-00K-8SOIS5933, and GS-
         OOK -86AGS5669
A70495   Preaward Audit of Multiple Award Schedule Contract: Sorbus, Inc., Solicitation No.     07/09/87
         GSC-KESO-C-00036-N-4-8-87
A70573   Report on Review of Proposal for Initial Pricing Under RFP No. GSC-OIT-70IS: Martin    07/10/87
         Marietta Data Systems, Field Services Division, Greenbelt, Maryland
A703S1   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Communica-         07/15/87
         hons Sector, Solicitation No. GSC-KESV-00044-N-4-23-87
A70421   Preaward Audit of Multiple Award Schedule Contract: Infolink Corporation, Solicita-    07/21/87
         hon No. GSC-KESV-00043-N-4-13-87
                                                                                                           39
     A70S28   Preaward Audit of Multiple Award Schedule Contract: General Electric Company - Mo-      07121/87
              bile Communications Business Division, Solicitation No. GSC-KESV-00044-N-4-23-
              87
     A70611   Report on Review of Proposal for Initial Pricing Under RFP No. GSC-KESV-00041-N-        07121187
              12-4-86: Microcom Corporation, Warminster, Pennsylvania
     A70612   Audit Report on Evaluation of Cost or Pricing Data in Support of Proposed Catalog       07121187
              Prices Submitted by: Decom Systems, Inc.
     A70436   Preaward Audit of Multiple Award Schedule Contract: Emulex Corporation, Solicita-       07123/87
              tion No. GSC-KESO-C-00036-N-4-8-87
     A70S27   Preaward Audit of Multiple Award Schedule Contract: Audio Intelligence Devices, So-     07129/87
              lici tation No. GSC-KESV -00044-N -4-23-87
     A70379   Preaward Audit of Multiple Award Schedule Contract: Harris Corporation, Computer        07/30/87
              Systems Division, Solicitation No. GSC-KESO-C-00036-N-4-8-87
     A70429   Preaward Audit of Multiple Award Schedule Contract: Harris Corporation, Lanier Busi-    07/30/87
              ness Systems Division, Solicitation No. GSC-KESO-C-00036-N-4-8-87
     A7043S   Preaward Audit of Multiple Award Schedule Contract: Tektronix, Inc., Solicitation No.   07/31/87
              GSC-KESO-C-00036-N -4-8-87
     A70496   Preaward Audit of Multiple Award Schedule Contract: Contel Business Systems, Inc.,      08/03/87
              for Contel Executone, Solicitation No. GSC-KESV-00043-N-4-16-87
     A6040S   Postaward Audit of Multiple Award Schedule Contracts: Digital Equipment Corpora-        08/04/87
              tion, Contract Nos., GS-00C-03404, GS-00K-840lSS6S7, GS-00K-8SOlSS933, and GS-
              OOK -86AGSS669
     A70628   Report on Evaluation of Price Proposal Submitted by: Computer Data Systems, Incor-      08/04/87
              porated, Rockville, Maryland
     A70222   Preaward Audit of Multiple Award Schedule Contract: Falcon Microsystems, Inc., So-      08/11/87
              licitation No. GSC-KESS-B-0003S-N -11-26-86
     A70SS9   Preaward Audit of Multiple Award Schedule Contract: Oracle Corporation, Solicitation    08/11/87
              No. GSC-KESO-C-00036-N -4-8-8 7
     A70S60   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Solicitation No.    08/11/87
              GSC-KESV-00044-N-4-23-87
     A70SS6   Preaward Audit of Multiple Award Schedule Contract: Trans World Communications,         08113/87
              Inc., Solicitation No. GSC-KESV-00044-N-4-23-87
     A60403   Postaward Audit of Multiple Award Schedule Contracts: Digital Equipment Corpora-        08/20/87
              tion, Contract Nos. GS-00C-03404, GS-00K-840lSS6S7, GS-00K-8S01SS933, and GS-
              OOK -86AGS5669
     A70S0S   Preaward Audit of Multiple Award Schedule Contract: Control Data, Business Infor-       08/20/87
              mation Services, Solicitation No. GSC-KECT-A-00009-N-4-30-87
     A70416   Preaward Audit of Multiple Award Schedule Contract: Hewlett-Packard Company, So-        08/28/87
              licitation No. GSC-KESO-C-00036-N-4-8-87
     A70430   Preaward Audit of Multiple Award Schedule Contract: Andrew Corporation, Solicita-       08/28/87
              tion No. GSC-KESV-00044-N-4-23-87
     A704SS   Preaward Audit of Multiple Award Schedule Contract: CPT Corporation, Solicitation       08/28/87
              No. GSC-KESO-C-00036-N -4-8-87
     AS0193   Postaward Audit of Multiple Award Schedule Contracts: Intel Corporation, Contract       09/03/87
              Nos. GS-00C-03079 and GS-00C-03S 7S
     A70S98   Preaward Audit of Multiple Award Schedule Contract: Mitel, Inc., Solicitation No.       09/03/87
              GSC-KESV-00043-N-4-16-87
     A70443   Preaward Audit of Multiple Award Schedule Contract: Sun Microsystems Federal, Inc.,     09/09/87
              Solicitation No. GSC-KESO-C-00036-N-4-8-87
     A70422   Preaward Audit of Multiple Award Schedule Contract: NCR Corporation, Solicitation       09111/87
              No. GSC-KESO-C-00036-N-4-8-87

40
A70329   Postaward Audit of Multiple Award Schedule Contract: Data Access Systems, Inc.,         09115/87
         Contract No. GS-OOK-8501S5139 for the Period April 1, 1985 to June 30, 1986
A70537   Preaward Audit of Multiple Award Schedule Contract Renewal: Data General Corpo-         09115/87
         ration, Contract No. GS-00K-87 AGS5862
A70478   Preaward Audit of Cost or Pricing Data: IBIS Corporation, Solicitation No. GSC-KESA-    09117/87
         C-00034-N-1l-19-86
A70488   Preaward Audit of Cost or Pricing Data: IBIS Corporation, Solicitation No. GSC-KESS-    09117/87
         B-00035-N·1l-26-86
A70686   Report on Review of Proposal No. H7-2078 for Initial Pricing Under RFP No. KECA 87-     09118/87
         001: Pentastar Support Services, Incorporated, Huntsville, Alabama
A70741   Contract Audit Closing Statement, Contract No. GS-00K-85ADJ0059 (Task 2), Sub-          09118/87
         mitted by: The Mitre Corporation, Bedford, Massachutetts
A70742   Contract Audit Closing Statement, Contract No. GS-00K-85ADJ0059 (Task 3), Sub-          09/18/87
         mitted by: The Mitre Corporation, Bedford, Massachusetts
A70500   Preaward Audit of Multiple Award Schedule Contract: Telex Federal Systems, Inc., So-    09121/87
         licitation No. GSC-KESO-C-00036-N-4-8-87
A70501   Preaward Audit of Multiple Award Schedule Contract: NEI, Inc., Solicitation No. GSC-    09121/87
         KESO-C-00036-N -4-8-87
A70516   Preaward Audit of Multiple Award Schedule Contract: Sunair Electronics, Inc., Solici-   09123/87
         tation No. GSC-KESV-00044-N-4-23-87
A70531   Preaward Audit of Multiple Award Schedule Contract: Computer Associates Interna-        09123/87
         tional, Inc., Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70744   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-006: Com-        09123/87
         puter Sciences Corporation, Applied Technology Division-Applied Technology Com-
         pany, Falls Church, Virginia
A70747   Audit Report on Review of Firm-Fixed-Price-Proposal Submitted in Response to General    09123/87
         Services Administration RFP No. KECA-87-002 by: Colsa, Inc., Huntsville, Alabama
A70748   Report on Evaluation of Price Proposal GSA RFP No. GSC-OIT-7038: E.C. Buie Data         09123/87
         Processing Services, Inc., Beachwood, Ohio
A70762   Report on Evaluation of Price Proposal Submitted by: Computer Data Systems, Inc.,       09123/87
         Rockville, Maryland
A70470   Preaward Audit of Multiple Award Schedule Contract: Varityper, Division of AM In-       09125/87
         ternational, Inc., Solicitation No. GSC-KESO-C-00036-N-4-8-87
A70529   Preaward Audit of Cost or Pricing Data: GRIM Corporation, Solicitation No. GSC-         09125/87
         KESV -00044-N -4-23-87
A70749   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-006: Vanguard    09125/87
         Technologies Corporation, National Systems Company, Defense Systems Division
A70750   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-006: Plan-       09125/87
         ning Research Corporation, Field Services Division
A70751   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-006: OAO         09125/87
         Corporation, Western Zone Division
A70752   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-002: Amer-       09125/87
         ican Management Systems, Inc.
A70753   Report on Review of Proposal for Initial Pricing Under RFP No. KECA-87-003: Keydata     09125/87
         Systems, Inc.
A70597   Preaward Audit of Multiple Award Schedule Contract: Wang Laboratories, Inc., Solici-    09/30/87
         tation No. GSC-KESO-C-00036-N-4-8-87


IRMS     Internal Audits
A60537   Review of the Procurement and Administration of Telephone Services in Region 4          06122187

                                                                                                            41
     Other    Internal Audits
     A70249   Review of Imprest Fund, Tulsa Field Office, Buildings Management Division                 04/07/87
     A70250   Review of Imprest Fund, Oklahoma City Field Office, Buildings Management Division         04/07/87
     A70182   Review of Imprest Fund, Cadman Plaza Buildings Management Field Office, Brooklyn,         04/30/87
              NY
     A60565   Limited Review of the Federal Managers' Financial Integrity Act, Section 2, Fiscal Year   05/19/87
              1986
     A70212   Review of Imprest Fund, East Bay Field Office, Oakland, California                        OS/20/87
     A70261   Review of the Central Office Imprest Fund                                                 06/12/87
     A70348   Review of Norfolk Field Office Imprest Fund                                               07/30/87
     A70350   Review of Imprest Fund at the Wilkes-Barre Field Office, Wilkes-Barre, PA                 08/12/87
     A60489   Review of Controls Over Overtime, Region 9                                                08/26/87
     A70332   Review of Operations of the External Services Branch in the Region 6 Finance Division     08/27/87
     A70070   Review of Non-Federal Accounts Receivable for Hospital Grants                             09/04/87
     A70349   Review of the Chesapeake Field Office Imprest Fund                                        09/21/87
     A70070   Review of Non-FedeIal Accounts Receivable for Audit Related Claims                        09/23/87
     A70070   Review of Non-Federal Accounts Receivable for Scrap and Stockpile Sales                   09/23/87
     A70070   Review of Non-Federal Accounts Receivable for Mortgages                                   09/24/87
     A700l0   Review of Non-Federal Accounts Receivable for Fines and Penalties and General Supply      09/24/87
              Fund Claims




42
APPENDIX II-DELINQUENT DEBTS

GSA's Office of Comptroller provided the information                         the amount of debt written off as uncollectible focused
presented herein.                                                            on upgrading collections functions and enhancing debt
                                                                             management. These activities included the following:

GSA Efforts to Improve Debt                                                      •   Eleven mortgages valued at approximately $477,000
                                                                                     were paid off.
Collection
During the period April I, 1987 through September 3D,                            •   Twenty-eight delinquent accounts were referred to
1987, GSA efforts to improve debt collection and reduce                              collection agencies.


                                        Non-Federal Accounts Receivable
                                                                       As of                As of
                                                                    April 1, 1987     September 30, 1987          Difference

     Total Amounts Due GSA .................................         $28,908,306            $31,919,113            $3,010,807
     Amount Delinquent ..........................................    $14,880,512            $16,914,003            $2,033,491

     Total Amount Written Off as Uncollectable
       Between 4/1/87 and 9/30/87........................             $539,318




Of the total amounts due GSA and the amounts delin-                          GSA and the amount delinquent as of September 3D,
quent as of April I, 1987, $12.4 million and $12 million,                    1987, $14.3 million and $13.l million, respectively, are
respectively, were in dispute. Of the total amounts due                      being disputed.




                                                                                                                                         43
     APPENDIX III - SUMMARY OF DIG PERFORMANCE
     DURING FISCAL YEAR 1987

     During Fiscal Year 1987, OIG activities resulted in:          •   Civil complaints against 12 individuals and 8 civil
                                                                       settlements.
       •    635 audit reports.
                                                                   •   20 case referrals to other Federal and State agencies
       •    57 implementation reviews of internal a udi t              for further investigation.
            reports.
                                                                   •   44 reprimands, 15 suspensions, 3 demotions, and
       ..   Recommended cost avoidances and recoveries of              26 terminations of GSA employees.
            over $326 million.
                                                                   •   13 case referrals recommending suspension of 52
       •    Management commitments to more efficiently use             contractors.
            almost $212 million.
                                                                   •   35 case referrals recommending debarment of 117
       •    Management commitments to recover funds, vol-              contractors.
            untary recoveries, court-ordered recoveries, and in-
            vestigative recoveries of almost $8.7 million.         •   49 contractor suspensions and 52 contractor
                                                                       debarments.
       •    408 new investigations opened and 377 cases
            closed.                                                •   68 OIG subpoenas.
       .. 35 case referrals (68 subjects) accepted for criminal    •   471 legislative matters and 224 regulations and di-
          prosecution and 13 case referrals (20 subjects) ac-          rectives reviewed.
          cepted for civil litigation.
                                                                   •   587 Hotline calls and letters, 21 GAO referrals, and
       •    40 criminal indictmentslinformations/complaints            30 other agency referrals.
            and 37 successful prosecutions on criminal mat-
            ters referred.




44
NOTES
NOTES
NOTES
NOTES
